<html>
<title> - [H.A.S.C. No. 111-124] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 111-124]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2011

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF THE NAVY

                               __________

                              HEARING HELD

                           FEBRUARY 24, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
58-171                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>  
                                     
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma

                    Erin C. Conaton, Staff Director
                  Will Ebbs, Professional Staff Member
               Jenness Simler, Professional Staff Member
                     Liz Drummond, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, February 24, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Navy...........................................................     1

Appendix:

Wednesday, February 24, 2010.....................................    47
                              ----------                              

                      WEDNESDAY, FEBRUARY 24, 2010
  FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE NAVY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' A Representative From 
  California, Ranking Member, Committee On Armed Services........     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Conway, Gen. James T., USMC, Commandant, U.S. Marine Corps.......     8
Mabus, Hon. Ray, Secretary of the Navy...........................     4
Roughead, Adm. Gary, USN, Chief of Naval Operations, U.S. Navy...     6

                                APPENDIX

Prepared Statements:

    Conway, Gen. James T.........................................    99
    Mabus, Hon. Ray..............................................    55
    McKeon, Hon. Howard P. ``Buck''..............................    53
    Roughead, Adm. Gary..........................................    75
    Skelton, Hon. Ike............................................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................   121
    Mr. Skelton..................................................   121

Questions Submitted by Members Post Hearing:

    Mr. Akin.....................................................   126
    Mr. Hunter...................................................   131
    Mr. Lamborn..................................................   130
    Mrs. McMorris Rodgers........................................   130
    Mr. Thornberry...............................................   125
    Ms. Tsongas..................................................   125
    Mr. Wilson...................................................   128
  FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE NAVY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 24, 2010.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today the House Armed Services 
Committee meets to receive testimony on the fiscal year 2010 
budget request for the United States Navy and Marine Corps.
    Appearing before the committee the Honorable Ray Mabus, 
Secretary of the Navy; Admiral Gary Roughead, Chief of Naval 
Operations [CNO]; and General James T. Conway, Commandant, 
United States Marine Corps.
    Now, Mr. Secretary, we note that this is your first time 
testifying before our full committee, and we welcome you--and 
Admiral Roughead.
    General Conway, thank you for your continued service, and 
thank you for the service of those that serve with you, and 
under you.
    Today the United States Navy has 194 ships under way. Of 
those 143 are deployed. These numbers equate to over 53,000 
sailors deployed in support of the Navy's missions worldwide. 
To support combat operations, the Navy has 15,600 individual 
augmentees deployed in the CENTCOM [United States Central 
Command] area of responsibility.
    The United States Marine Corps is almost 30,000 Marines 
deployed. A little over 15,000 Marines are on the ground in 
Afghanistan. Many of those are currently engaged in hostile 
combat in and around the town of Marjah in the Helmand 
Province.
    I am sure I speak for all members of our Committee when I 
say that our thoughts and prayers are with all the deployed 
sailors and Marines, with their families, and with particular 
concern for those Marines who are currently engaged in the 
combat operations.
    And I have said this before, but it bears repeating. Our 
sea services are this nation's fast response force. The Navy 
power base is maneuvered from the sea. Marine Corps is and 
should remain an amphibious assault force and a crisis aversion 
force.
    Current operations over the last seven years have stressed 
our Marine Corps, and fashioned them to more the medium-heavy 
ground combat force. And I am a bit concerned about that.
    We remain committed to provide our sailors and Marines with 
equipment they need to accomplish the task before them. There 
are challenges. The Navy must recapitalize the main battle 
fleet to numbers which can support the COCOM's [Unified 
Combatant Command's] requirements. The 30-year Shipbuilding 
Plan submitted with the budget request only partially 
accomplishes this task. I will repeat that, only partially 
accomplishes this task. From that plan it appears the costs 
associated with replacing the Ohio-class ballistic missile 
submarine is so high that efforts to restore numbers in the 
surface force and the attack submarine force may have to be 
sacrificed to pay for the national strategic deterrence mission 
of the ballistic missile submarine.
    Shipbuilding plans don't address the requirement of a 38-
ship force of amphibious assault ships. At best the 
shipbuilding plan provides a force of amphibious ships in the 
low 30s. And it seems to me that might be an unacceptable risk. 
And I am sure that our Committee will carefully review this 
proposed Navy shipbuilding plan.
    I am very concerned about the looming strike fighter 
shortfall in Navy aviation. In short, I don't understand why 
the F/A-18 Strike Fighter program has not been extended. By any 
analysis, more Navy and Marine Corps fighters will be needed to 
meet validated inventory requirements by the middle of the 
decade. Delays in the Joint Strike Fighter Program only 
exacerbate the problem of a near-term strike fighter shortfall.
    The Navy and Marine Corps continue to be challenged in 
maintenance and recapitalization. I am pleased to see an 
increase in the Navy's request for operation and maintenance 
funds. I note that in Admiral Roughead's response to the 
ranking member's request for the Navy unfunded priority list, 
the CNO lists spare parts and deferred maintenance as his three 
most vital shortfalls.
    Year over year deferred maintenance seems to pile up. If we 
cannot seem to find the funding to maintain our ships and our 
planes and our equipment, I am deeply concerned about the 
additional cost of replacing them prior to the end of their 
expected life service.
    Deployments have always been a part and parcel to sea 
service. That happens every day. Sea services have always lived 
in a reality of deployment. Reset, retraining, redeployment. 
And I have been very concerned that the average Navy deployment 
cycle has gradually increased from a traditional 6-month 
deployment with an 18-month maintenance and retraining period 
to deployments averaging 8 months with comparable reduction in 
the maintenance and retraining period.
    The stress on the force, frankly, is increasing. I would 
like to address the relocation of the Marines from Okinawa. It 
is essential that we preserve the unique strategic relationship 
that exists between Japan and our country. At the same time it 
is imperative that we reduce our force structure in Okinawa and 
retain the strategic capabilities associated with the third 
Marine Expeditionary Force.
    While I understand the desire of the new government of 
Japan to review the current basing agreements, we need to move 
forward with the overall realignment that includes a 
replacement facility and the Guam relocation.
    In the end we need to ensure that the Marine Corps and the 
supporting communities are in a better position.
    We need to get this move right. We can't go back and undo a 
mistake.
    And now I turn to my good friend, the ranking member, the 
gentleman from California, Buck McKeon.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 51.]

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Secretary Mabus, Admiral Roughead, General Conway, good 
morning. Welcome.
    In particular, General, with your forthcoming retirement, I 
guess this is your last posture hearing. I am sure you have 
been looking forward to this with mixed emotion.
    We look forward to all of your testimony here today. And 
really appreciate your service and what you do for the country, 
and your leadership.
    The President's Fiscal Year 2011 Defense Budget for the 
Department of the Navy requests $179.1 billion for 
discretionary and war funding. According to the Defense 
Department, this represents an increase of $5.2 billion over 
fiscal year 2010 enacted levels.
    From what I gather in the press, the three of you deserve a 
significant amount of credit for your advocacy for Navy and 
Marine Corps personnel and programs.
    However, I am concerned that the Department's [of Defense] 
efforts to make balance a fixture in the QDR [Quadrennial 
Defense Review] and the out-year budget is shortsighted, and 
puts the Department on the wrong path for the next 20 years.
    While the QDR states that U.S. forces must be able to 
deter, defend against and defeat aggression in anti-access 
environments, neither the Department of the Navy's fiscal year 
2011 budget request, nor the long-term shipbuilding or aviation 
plans appear to make significant long-term investments in the 
capabilities that would be required to achieve that goal.
    We have previously received testimony that the QDR and the 
fiscal year 2011 budget proposed a number of new initiatives 
designed to provide robust capabilities for tomorrow's force, 
such as a new SSBN [Nuclear-Powered Submersible Ship with 
Ballistic Capability] submarine, the F-35 ballistic missile 
defense, the Virginia-class attack submarine.
    While I agree that investments in these areas are 
necessary, they are neither sufficient, nor do they tell the 
full story.
    For example, the decision to fund the new SSBN submarine 
from within the Navy's shipbuilding procurement account could 
decimate the shipbuilding program in the out-years because the 
new SSBN will cost at least $7 billion, or close to half of the 
Navy's recent ship construction budgets. The F-35 program 
continues to experience developmental delays that only 
exacerbate the Navy and Marine Corps' strike fighters' 
shortfall. Yet the QDR and the budget request do nothing to 
rectify this situation.
    We are building two Virginia-class attack subs per year 
starting in fiscal year 2011. Yet the shipbuilding plan we just 
received has our force falling to 39 by 2030, leaving our 
combatant commanders worse off than they are now.
    The proposed regional missile defense architecture relies 
on the Navy's surface combatants. Nevertheless, the 
shipbuilding plan proposes a smaller surface combatant fleet 
than the last plan did. I need not go on. I am hopeful that you 
can provide further insights for this committee to help us 
understand how the QDR and the fiscal year 2011 budget reflect 
a comprehensive approach to providing the capabilities the Navy 
and Marine Corps will need in the future.
    Lastly, the President has asked Congress to consider a 
major personnel policy change that could affect readiness. 
Therefore, Admiral Roughead, and General Conway, I will be 
requesting your views on whether the current law prohibiting 
the service of openly gay men and women should be repealed, and 
on the suggestion that a moratorium on implementing current law 
be put into effect while the Department of Defense studies and 
reviews the issue.
    I am disappointed that the decision has been made not to 
let the service chiefs testify before the military personnel 
subcommittee's hearings on ``don't ask, don't tell.'' That 
decision limits the ability of members to fully understand and 
explore the concerns of the service chiefs about a repeal of 
current law. I would hope that we could continue that 
discussion.
    Once again, I thank you for being here today. I look 
forward to your testimony. I ask unanimous consent that my full 
opening statement be included in the record.
    The Chairman. Without objection it will be.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 53.]
    Mr. McKeon. I yield back my time.
    The Chairman. Thank you so much.
    Mr. Secretary, the floor is yours.

       STATEMENT OF HON. RAY MABUS, SECRETARY OF THE NAVY

     Secretary Mabus. Mr. Chairman, Congressman McKeon, members 
of this committee, it is a real pleasure to be here today 
before the House Armed Services Committee. The CNO, the 
Commandant, and I are grateful for the commitment that the 
members of this committee have shown to our men and women in 
uniform in the Navy and the Marine Corps. We are exceptionally 
proud to be here today representing our sailors, Marines, 
civilians, and their families.
    The Navy and Marine Corps remain the most formidable 
expeditionary fighting force in the world, capable of global 
operations across the entire spectrum of warfare. Today, as the 
Chairman noted, 40 percent of our forces are deployed and over 
half the fleet is at sea.
    In Helmand province, Afghanistan, more than 15,000 Marines 
are engaged in major combat, counterinsurgency, and engagement 
operations, including the effort to clear the Taliban 
stronghold of Marjah.
    They are supported there by naval aircraft flying close air 
support from Eisenhower [USS Dwight D. Eisenhower], and from 
our forward-deployed expeditionary aviation assets. A total of 
more than 12,000 sailors are on the ground in Iraq, 
Afghanistan, and across the broader Middle East, and another 
9,000 sailors and Marines are embarked on our ships at sea.
    Off the coast of Africa, ships are protecting international 
commerce off Somalia, and ships are operating as partnership 
stations with our regional allies. Off the coast of South 
America more ships are stemming the flow of illegal narcotics 
into the United States. Our ballistic missile defense forces 
are ready to defend against any threat to international peace 
in Europe, the Middle East, and the Pacific Rim.
    Our forward-deployed forces continue their role as a 
strategic buffer and deterrent against rogue regimes and 
potential competitors alike. And in Haiti, nine ships and 1,900 
Marines from the 22nd Marine Expeditionary Unit continue to 
provide humanitarian aid, disaster relief and medical 
assistance.
    The Navy and Marine Corps are flexible, responsive, and 
everywhere the nation's interests are at stake. Our global 
presence reduces instability, deters aggression, and allows us 
to rapidly respond to any crisis that borders a sea. I believe 
that the President's fiscal year 2011 budget for the Department 
of the Navy is a carefully considered request that gives us the 
resources we need to conduct effective operations and to meet 
all the missions we have been assigned.
    Our shipbuilding and aviation requests concur with the 
findings of the QDR and its objectives of prevailing in today's 
wars, preventing conflict, preparing for future wars, and 
preserving the force.
    With this budget, the Navy and Marine Corps will continue 
to maintain the maritime superiority of our forces, sustain a 
strong American shipbuilding base, and ensure our capacity for 
rapid global response.
    Across the 5 years we have requested the funds to build an 
average of 10 ships a year, including one carrier, one big-deck 
amphib, 10 Virginia-class submarines, and 17 Littoral Combat 
Ships.
    We will leverage the technologies captured from the 
canceled CGX [Next Generation Cruiser] program, and truncated 
DDG-1000 [Zumwalt-Class Destroyer] program, into what will 
become the Flight III Burke-class DDGs. These technologies 
include SPY-3 [AN/SPY-3 radar] and the air and missile defense 
radar.
    Through the submitted shipbuilding plan, we will increase 
the size of our fleet to approximately 320 ships by 2024. In 
our shipbuilding program I believe we have made the most cost-
effective decisions to achieve the most capable force. One that 
achieves equal flexibility to confront missions across the 
spectrum of conflict, from the technically complex, like 
ballistic missile defense and integrated air defense, to low-
intensity humanitarian response and regional engagement.
    In aircraft procurement, we have requested just over 1,000 
aircraft across the FYDP [Future Years Defense Program], 
including both fixed and rotary wing. Over the next year, the 
Navy and Marine Corps will continue to move ahead with changes 
to our acquisition process in compliance with the Weapons 
System Acquisition Reform Act. We are aggressively developing 
our acquisition strategies to ensure that on-time and on-budget 
becomes standard for the Navy and Marine Corps.
    I am grateful for the support of this committee for the 
decision to recompete the LCS [Littoral Combat Ship] program 
when it failed to meet program standards. I can assure you that 
we will not hesitate to recompete or cancel other programs 
whenever substandard performance demands change.
    Change is also required to address the way in which the 
Navy and Marine Corps use and produce energy. Energy reform is 
an issue of national security, and it is essential to 
maintaining our strategic advantage, our warfighting readiness, 
and our tactical edge.
    By 2020, I have committed the Navy to generate half of all 
the energy we use from alternative sources. This is an 
ambitious goal. Nothing has ever been accomplished without 
taking some bold steps. Forty years ago I stood watch on the 
deck of the USS Little Rock as a very young junior officer. 
Today, I have the solemn privilege of standing watch on behalf 
of our Navy and Marine Corps in a time of war and national 
challenge.
    I am honored by the trust the President and the Congress 
have placed in me, and fully recognize the solemn obligation I 
have to those who defend us. I, along with the CNO and the 
Commandant, look forward to hearing your thoughts and answering 
your questions that you have concerning our budget requests, 
our programs, our policies. I also look forward to working 
closely with you as we move forward to sustain the Navy and 
Marine Corps as the most formidable expeditionary fighting 
force in the world.
    Thank you.
    [The prepared statement of Secretary Mabus can be found in 
the Appendix on page 55.]
    The Chairman. Mr. Secretary, thank you, and we think you 
are off to a great start.
    Admiral Roughead, please.

     STATEMENT OF ADM. GARY ROUGHEAD, USN, CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Roughead. Thank you, sir. Chairman Skelton, 
Congressman McKeon, members of the committee, it is indeed my 
honor to before you again representing the more than 600,000 
sailors and Navy civilians.
    As you mentioned, Mr. Chairman, 65,000 of them are 
deployed, 12,000 on land in the Central Command Area of 
Operations, and 56 percent of our fleet is underway, carrying 
out our maritime strategy, a prescient precursor to the 2010 
Quadrennial Defense Review.
    They are projecting power into Afghanistan, building 
partnerships in Africa, delivering relief in Haiti, silently 
patrolling under the sea in every ocean, and providing 
ballistic missile defense in the Arabian Gulf, Western Pacific, 
and Eastern Mediterranean, with pride and determination.
    They are even deployed on the first Littoral Combat Ship 
two years ahead of schedule. And in the first week of that 
ship's deployment, she seized over a quarter of a ton of 
cocaine in the Caribbean. As our sailors and Navy civilians who 
make all things possible, and thanks to your support, we made 
important progress in building tomorrow's Navy, remaining ready 
to fight today and supporting our sailors and Navy civilians 
and families last year.
    This year's budget submission will take us even further. As 
the high demand for our Navy continues apace, we have 
stabilized end strength and the tone of the force remains 
positive. We will continue to aggressively improve wellness 
programs and medical and social services for our wounded 
warriors. Indeed, for all who serve.
    For our fleet as a continuously deployed force, we must 
continue to reset in stride, conducting regular maintenance and 
training so that our ships and aircraft reach their expected 
service lives. This year's budget aligns our baseline budget 
for operations and maintenance accordingly, and reflects a 
significant shift away from supplemental funding. I strongly 
request your support for this important change.
    While we reset, we must also procure ships and aircraft to 
reach our procurement of more than 313 ships. Last year, we 
commissioned 9 ships, and over the next decade our plan 
procures an average of 10 ships per year, significant growth 
for the near term.
    For aviation, I remain committed to bringing new 
capabilities online, the Joint Strike Fighter and unmanned 
aircraft, and maintaining the readiness of our current Naval 
Air Force, all of which give our nation flexibility and 
response, unencumbered by overseas basing. Affordability for 
all our plans will remain fundamental to our decisions. The 
effectiveness of our unmanned systems, ships, and aircraft is a 
feature of the systems which connect them.
    Last year, I brought information capabilities and resources 
under a single Information Dominance Directorate within the 
Navy staff, and commissioned Fleet Cyber Command 10th Fleet, 
and I see the benefits of that change every day.
    I am proud of our Navy's accomplishments last year, and I 
am confident we can achieve even more with this year's budget 
submission. Our risk continues to trend toward significant, and 
achieving the right balance, within and across, my priorities 
remains critical to mitigating it. But I remain optimistic 
because of the outstanding sailors and Navy civilians and the 
spirit of our nation.
    We have seen more challenging times and emerged prosperous, 
secure, and free. I ask you to support our 2011 budget request, 
and thank you for all you do to make the United States Navy a 
global force for good, today and into the future.
    Thank you, sir.
    [The prepared statement of Admiral Roughead can be found in 
the Appendix on page 75.]
    The Chairman. Admiral, thank you very, very much.
    General Conway, there is a lot of hard work left between 
now and the time we bid farewell to you. Carry on in the 
future. Thank you.

   STATEMENT OF GEN. JAMES T. CONWAY, USMC, COMMANDANT, U.S. 
                          MARINE CORPS

    General Conway. Mr. Chairman, Congressman McKeon, 
distinguished members of the committee, thank you for the 
opportunity to report to you on the posture of your Marine 
Corps. My pledge, as it has been over the years, is to provide 
you today a candid and honest assessment.
    Having recently returned from a trip to theatre, I am 
pleased to report to you on the magnificent performance of 
Marines and sailors in combat. If you count a full-year 
enlistment as a generation of Marines, we are now experiencing 
our third generation of great young patriots since our nation 
was provoked on 9/11.
    The first generation broke trail, leading the strikes into 
Afghanistan and Iraq. Our second generation quelled the once-
volatile province of Anbar. Today there are less than 175 
Marines in Iraq, but our third generation has more than 15,000 
serving in Afghanistan.
    The Marines are fighting a skilled and determined enemy, 
but with the Afghan security forces, they are once again 
proving they are the strongest tribe in the Taliban stronghold 
of Helmand. Let me assure you from what SAR [Sergeant] Major 
and I have witnessed firsthand, the highest morale in the Corps 
resides in those units posted in Afghanistan.
    My written statement to the committee provides a snapshot 
of the Corps and describes our near-term focus, our long-term 
priorities, and our vision of the future. That vision matches 
closely the results of the Quadrennial Defense Review. The 
Secretary of Defense seeks to create a U.S. military more 
closely focused on hybrid threats, yet capable of responding to 
a major contingency. That combination essentially describes the 
Marine Corps that we have built today.
    A Corps that we call a two-fisted fighter, able to perform 
equally well in a counterinsurgency, or in a high-intensity 
combined arms fight. Our resource expenditures, moreover, 
reflect our dual or swing capacity. That is to say that 100 
percent of Marine Corps equipment can be used in a hybrid 
conflict or in a major fight.
    Equivalent procurement is indeed our primary concern as we 
look at the fiscal year 2011 budget and beyond. Our 
requirements for equipment density in Afghanistan, and our 
resolve to reestablish our maritime pre-positions quadrants, 
have driven equipment stocks to an all-time low in our 
operating forces at home station.
    The ability to properly train for a deployment, and 
certainly the ability to respond to an unexpected contingency 
is at significant risk, based on this increasing shortfall. 
Congress has promised to resource us for a reset in 
constitution, but increasingly, we cannot wait for the guns to 
fall silent in Afghanistan for such an effort to begin. We ask 
for your help in this critical area.
    Our military construction accounts in the fiscal year 2011 
budget and the FYDP are sufficient to help maintain the promise 
we have made to our Marines that they will have quality living 
spaces at home between deployments. One need only visit some of 
our major bases and stations to realize that we waited too long 
to begin this effort.
    Similarly, we believe that even in wartime we must continue 
a heavy emphasis on education of our officers and staff NCOs 
[Non Commissioned Officers]. A strong reservoir of strategic 
and operational thinkers is a must on sophisticated joint and 
combined battlefields. Therefore, a quality Marine Corps 
University with facilities to match our already world-class 
student body, faculty, and curriculum is a major priority. We 
trust we will receive your full support in our MILCON [Military 
Construction] investments that will repay huge dividends in the 
years to come.
    Ladies and gentlemen of the committee, I must admit my own 
surprise that our Corps of Marines and their families have 
remained so resilient over these nine years of conflict. They 
have been incredibly determined, loyal, and courageous in an 
effort to see these two wars to a successful close. Much of the 
credit goes to you in the Congress for providing them with the 
finest in equipment, warrior care, quality of life for our 
families, and compensation.
    The number one question in the minds of our troops is 
always: Is the country behind us? The members of Congress have 
answered that question in spades, both by your apportionment of 
the nation's precious resources, but also through personal 
efforts to visit troops in theatre, and those who are wounded 
at Bethesda and Walter Reed.
    As a result of all the above, and the natural tendency for 
Marines to stick around for a fight, our recruitment and 
retention are at all-time highs. I predict that for the second 
year in a row we will close out reenlistment opportunities for 
first-term and career force Marines at the halfway point of the 
fiscal year. Clearly, such a phenomenon would not be possible 
if Marines and their families were not happy in the service of 
their country.
    One day this long war with terrorists and Islamic 
extremists will be over. Your Marine Corps will cease being a 
second land army and gladly rejoin our Navy brothers aboard 
amphibious ships in order to project America's global presence, 
demonstrate American good will, and if need be, protect 
America's vital interests.
    Until that day comes, however, your Corps will continue, as 
we say, to do windows. That is, we will continue to take aboard 
the indomitable youth of America and make them Marines with the 
absolute conviction that as a result they will one day be 
better citizens. We will be trained and as equally prepared to 
rout Taliban fighters in Marjah as we are to feed beleaguered 
Haitians outside Port-au-Prince. With your continued support 
and that of our loyal countrymen, we will do whatever the 
nation asks us to do and do it exceedingly well.
    Thank you, sir, and I look forward to your questions.
    [The prepared statement of General Conway can be found in 
the Appendix on page 99.]
    The Chairman. General, thank you very much. I think that 
all of us, and I know I speak for all the members of the 
committee, when I say we are immensely proud of the young men 
and young women who wear your uniforms, we are immensely proud 
and thankful for their families and the reflection of the high 
state of morale of which you gentlemen spoke.
    I have been blessed to be in the Congress several years, 
and I remember very well President Ronald Reagan aiming for a 
600-ship Navy. That was a very worthy goal at the time. Today, 
we haven't even reached his halfway mark on that goal. We don't 
even have 300 ships out there.
    The oceans haven't gotten any smaller. Technology has 
gotten a lot better and one of the arguments is we don't need 
as many ships. Nevertheless, it is imperative that we have 
enough presence to make a difference, much less an ability to 
fight. How do you, Mr. Secretary, speed up your suggested 
building and numbers rate? We need to know.
    Secretary Mabus. Mr. Chairman, we have today, as you 
pointed out, 285 ships in our battle fleet and more than half 
of them are underway today. We are very cognizant of the fact 
that our force structure requirement of 2005 said that 313 
ships are a floor and it is a floor that both the CNO and I 
recognize and need to build to get to that level.
    We think that the 5-year shipbuilding plan and the longer 
30-year shipbuilding plan that we have submitted on this 
budget, which builds an average of 10 ships a year, 50 ships 
over this 5-year period, drives us toward that goal. By 2020, 
we will have reached the goal of more than 313 ships in the 
Navy.
    We think it is important to note as you did that these 
ships that we are building today are incredibly capable, 
incredibly technologically advanced and crewed by the best 
sailors and Marines that we have ever had, but at some point 
quantity becomes a quality all its own. And as you pointed out, 
the oceans haven't gotten any smaller and we do need to make 
sure that we are driving to increase the size of our fleet. And 
we believe that the budget that we have submitted to you and 
the shipbuilding plan that we have submitted to you do both of 
those things.
    The Chairman. One of the problems that we faced a few years 
ago and it was a surprise to my friend, Mr. Taylor, the 
Chairman of the Seapower Subcommittee, and as well to me, the 
retirement list of ships wasn't even made known to us 
officially. Of course, that was long before anyone sitting at 
the table here had any say on it.
    But a good part of it is the possibility of reviewing the 
retirement list and maybe we can get some more work out of some 
of these ships and help with the numbers. And as you have so 
correctly noted, quantity has a quality of its very own. I 
charge you with carefully deciding what ships should be with, 
should be on the retirement list.
    General, let me ask you the fact that so many Marines 
today, the whole generation of Marines actually, find 
themselves fighting as Army soldiers in a desert? What will 
that do to the Marine culture of future years?
    General Conway. Sir, as I said in the opening statement, we 
consider ourselves a multicapable force and therefore available 
to do whatever the nation would ask us to do. And, of course, 
as you note correctly, over the past 8 or 9 years, we have been 
asked to serve as a second land army alongside our brothers in 
the United States Army. Our gear has begun to, has accomplished 
the protection that is required and in the process has gotten 
heavier.
    We are a long way from salt sea air and our comfort zones 
as a naval force and yet, I would argue that we are doing it 
pretty well. That is not to say we want to continue to do it 
when the need is gone. We see the great value that we offer to 
the nation. We see our niche within the organization of the 
armed forces being just what you described in your opening 
statement and that is a naval force capable of extending 
America's presence and protecting our vital interests overseas.
    We have distinctly in our plans thought processes that will 
shed us of some of this heavier equipment, examine in detail 
what the amphibious lift, what the STRATCOM [United States 
Strategic Command] aviation lift would look like for rapid 
deployment and that is the Marine Corps we intend to be in the 
future.
    The Chairman. Admiral Roughead, what worries you the most 
as you sit there this morning?
    Admiral Roughead. What worries me the most, Mr. Chairman, 
as I look to the future as is insuring, as you pointed out in 
your statement, that as we get into what I consider to be the 
midterm of our shipbuilding plan that we have taken a good look 
at the costs associated with the replacement for the Ohio-class 
submarine and then the numbers of ships that were procured in 
significant numbers by class in the 80s as they reached the end 
of their service lives and the recapitalization that will be 
required for that.
    But that is beyond the scope of this budget that we have 
submitted, but as I look to the future and think about the 
issues my successors will deal with, that is what I think 
about.
    The Chairman. Can we take that decision on the new Ohio-
class submarine down the road in favor of additional numbers of 
ships, other types of ships? Because you don't really need it 
until 10, 12, 15 years out.
    Admiral Roughead. No, sir. I think we have to be moving on 
that ship right now. The reason being is that that submarine 
will--the last submarine of the Ohio-class replacement--will 
come off of its last patrol in 2080. And the need to put in the 
types of systems and capabilities to take that ship out to that 
period of time requires significant thought and development and 
now is the time to start.
    It is absolutely consistent with where we have been with 
the Ohio class and I believe now is the time to be moving on 
that and I appreciate the support for that.
    The Chairman. You understand our concern about ship 
numbers, do you not?
    Admiral Roughead. Absolutely, Mr. Chairman. I deal with the 
demands that we have coming in on a daily basis and I do 
believe that what we have done in the last couple of years to 
get some direction and stability in what I consider to be a 
workhorse of the fleet, the Arleigh Burke class, getting that 
line restarted is absolutely critical to field any capabilities 
we need getting to the downselect on Littoral Combat Ship is 
going to allow us to build those in the most affordable way.
    So I believe that this program that we have put together 
addresses the numbers in the best way.
    The Chairman. Thank you so much. Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. Admiral Roughead and 
General Conway, in your personal view, should the current law 
prohibiting the service of openly gay men and women be repealed 
and what is your personal view with regard to the suggestion 
that a moratorium on implementing the current law be put into 
effect while the Department of Defense studies and reviews the 
issue taking place?
    Admiral Roughead. Mr. McKeon, my personal view is what is 
in the best interest of the United States Navy. And that is to 
go forward with the assessment that has been called for by the 
Secretary of Defense to allow us to assess the force that we 
have today. There are a lot of bits of information and surveys 
that have taken place, but there has never really been an 
assessment of the force that serves. And equally important to 
that force is the opinions of the families who support that 
force.
    That needs to be done because only with that information 
can we talk about the force that we have, not someone else's, 
not another country's--about the United States Navy in my case. 
So we need to proceed down that path. With regard to a 
moratorium, I believe that it would be extremely confusing to 
the force and I do not recommend that.
    Thank you.
    General Conway. Sir, our commander in chief has spoken and 
the Secretary of Defense has devised a way through a working 
group to examine the data, I think, in a way that has never 
been done and I support his efforts and we will contribute to 
that effort as it goes down range. However, I would encourage 
your work, mine and that of the working group to be focused on 
a central issue and that is the readiness of the armed forces 
of the United States to fight this nation's wars.
    That is what our armed forces are intended to do. That is 
what they have been built to do under the current construct and 
I would argue that we have done a pretty good job bringing that 
to pass. So my concern would be if somehow that central purpose 
and focus were to become secondary to the discussion because 
that is what your armed forces is all about.
    Mr. McKeon. And the moratorium?
    General Conway. Sir, in terms of the moratorium, I agree 
with the CNO. Our commanders out in the field are trying to 
execute the guidance to the absolute best of their abilities. 
There is an expression we have, keep it simple. I would 
encourage you either to change the law or not, but in the 
process half measures, I think, will only be confusing in the 
end.
    Mr. McKeon. Thanks very much. Admiral, as I alluded to in 
my opening statement, I remain concerned that the QDR's focus 
on today's wars is precluding the department from making the 
investments that are required for our long-term national 
security interests. Let me provide a specific example.
    The committee has been briefed that the far-term planning 
period in the long-range shipbuilding plan is characterized 
from 2031 to 2040. It is characterized by the emergence of a 
near-peer competitor. While one may debate whether a near-peer 
competitor could emerge sooner than that, it is reasonable to 
assume that the threat of a peer competitor, particularly one 
with significant anti-access capabilities, would increase the 
Navy's reliance on large surface combatants, attack and guided 
missile submarines and amphibious ships.
    Unfortunately, our force structure assumes the greatest 
risk in these exact platforms during this period. Large surface 
combatant force levels decrease from a high of 96 to a 
sustained low of 60 in the 60s and 70s. Attack submarines 
decrease from a high of 55 to 39 with sustained low levels in 
the low 40s during that period. Cruise missile submarines, 
which also provide significant capabilities for special forces, 
disappear entirely. Amphibious ships sustained lows in the--of 
29 and 30--10 percent below the limit of acceptable risk for 
these forces, and over 30 percent below the current 
requirement.
    In your professional assessment are you confident that this 
force could deter or defeat at low to moderate risk a near-peer 
competitor with access capability? And if not, please 
characterize the risk that you see to our national security?
    Admiral Roughead. Yes, sir. Thank you for the question. And 
as I look at the force that we have laid out--the force that 
exists today, and particularly the force that is addressed by 
the budget that is being submitted--I do believe that even 
though there is much talk and discussion about focusing on the 
wars that we are in--I will tell you that the United States 
Navy is all in, in Afghanistan, and in Iraq, and in that 
critical area.
    But at the same time I think it is noteworthy that we have 
increased our submarine production to two submarines a year. 
And the Virginia class is out--deployed. It is a terrific 
submarine. We are moving forward, as I said, with the ballistic 
missile defense--or the ballistic missile submarine. The 
advances and the investments that we are making with regard to 
ballistic missile defense in our surface combatants is exactly 
the type of capability that we are going to need in integrated 
air and missile defense. Not just for ballistic missiles, but 
against the cruise missile threat.
    Taking some of the technologies that we will prove in the 
DDG-1000. Coupling that with the direction that we are going 
with our ballistic missile force, and the Arleigh Burke class, 
and in our cruisers, I believe we will then be able to better 
inform the next surface combatant that will address those 
challenges that are out there in the future.
    In aviation we have to get to the Joint Strike Fighter. It 
is an incredible capability. And in this budget, I am extremely 
pleased with what we have been able to do with unmanned 
systems. Particularly the demonstration that we are moving 
forward with the unmanned carrier airborne system. That is also 
going to inform us about that time period that you are talking 
about there. That is going to be extremely important to us. And 
we need to be able to continue that demonstration project.
    And in the area of cyber that is not so much hardware, but 
the reorganization that we have made this past year in the 
Navy, and the stand-up of the 10th fleet, allows us to get into 
that battle space if you will. And that battle space is going 
to become equally important as that which is kinetic.
    So I do believe that we are laying in the right types of 
capabilities that we are going to need for the future.
    Mr. McKeon. Thank you. Understanding that technological 
advances will benefit both our forces, and those of a potential 
peer competitor in the interim, would you be in a better 
position with those--with this proposed force structure than 
you are today if you had more cruisers, destroyers, and 
submarines in the force?
    Admiral Roughead. Mr. McKeon, we are ramping up our 
ballistic missile defense capability, not just in the building 
of the new DDG-51 restarts, but also going back in. And the 
beauty of the weapons system that we currently have is that it 
allows us to modify the current ships so that they are BMD 
[Ballistic Missile Defense]-capable. We are also adding to our 
missile inventory in that regard.
    With respect to submarines, we are meeting all of the 
critical requirements that the COCOMs have levied on us. And I 
see the benefit of what our submarines are doing every day 
around the world. I have the privilege of being debriefed by 
the young commanders as they come back in. And our submarine 
force is meeting the critical requirements of the COCOMs, and 
doing it exceedingly well.
    Mr. McKeon. Well, as I mentioned in my opening statement, I 
think the three of you have done an outstanding job, given the 
limits of the top line for the Navy and the Marines. I am just 
concerned that the top line isn't what we need. And so I think, 
as the Secretary said earlier to us, that our numbers look good 
for the few years ahead. But in the out-years it is a fantasy. 
Not you, Secretary, Secretary Gates.
    And I think that that is a concern that we all need to be 
really aware of. I think that there are probably areas where we 
can save money. But even in our best efforts, I think we are 
still not getting all that we need to protect us in--out into 
the future. So thank you again for all that you are doing, and 
I appreciate it.
    Yield back.
    The Chairman. Thank the gentleman.
    Before I call Mr. Ortiz--Admiral, as we speak today, how 
many sailors do you have in either Iraq or Afghanistan doing 
Army type of work?
    Admiral Roughead. Right now, Mr. Chairman, we have 12,000 
sailors on the ground in Iraq and in Afghanistan. And around 
6,000 of them are doing things that are not necessarily within 
what we would consider our core or adaptive core capabilities.
    The Chairman. In other words, they are doing Army work?
    Admiral Roughead. Yes, sir. They are working as--in support 
of our ground forces. They are doing extraordinary work I might 
add. And we benefit from that experience as well. Because that 
time that they spend in the fight, on the ground with other 
services--when they come back into the Navy, they bring 
perspectives, they bring leadership experiences. And 
observations on ways of doing things that they otherwise 
wouldn't have.
    And I am also very pleased that they promote at a higher 
rate than those who have not had this experience.
    The Chairman. Thank you. And we now go to the 5-minute 
rule.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Secretary Mabus, Admiral Roughead, General Conway, I want 
to thank you all for the great service that you have given to 
our country. And thank you so much for joining us today. I just 
have a few questions for all of you on the subject of wind 
farms, and military readiness.
    My district in South Texas trains half of the Navy and 
Marine Corps pilots in the country. And you can imagine that I 
am so proud of these young men and women. And I want to make 
sure that I do everything within my power to provide them the 
best training facilities in the country.
    Now multiple wind farms have emerged in my district--and 
God knows we need all the energy we can get--in very close 
proximity to my two Naval air training bases. These wind farms 
are impacting the use of radar throughout the district, and 
forcing changes in training routes. And interfering with air 
defense radars. And this is what I hear.
    And I understand that this same issue is also impacting 
other Naval installations. My concern is not with the 
development of the wind farm energy. But rather the negative 
impact that these wind farms have on our military readiness. 
Now I wonder what is the Navy doing to ensure that these wind 
farms do not impact radar or military training?
    And I just want to know, because we have different 
agencies. And I see where some departments are granting grants 
for wind energy, solar energy. And I just wonder if the 
agencies are talking to one another to see that whatever they 
do does not impact on the training that we have. Not only in my 
facilities in South Texas, but in other facilities throughout 
where we conduct training.
    And maybe all of you can respond, and give me some insight 
to my question?
    Secretary Mabus. Thank you, sir. We are proud of 
Kingsville, and we do think that they train the best pilots in 
the world there. We are very aware of the wind farm issue 
around Kingsville. And of the other issues that may impact 
training from various directions with various other government 
agencies. And we are keeping a close eye on the wind farms 
around Kingsville. Thus far it is our belief that it, they have 
not interfered with the core training, the essential training 
that is necessary for the pilots.
    If proposals were made to construct wind farms that did, we 
would of course want to take some action to make sure that that 
did not happen. We work closely with other agencies to make 
sure that military readiness, national defense capabilities, 
are not impacted. And that they understand how our needs would 
be affected.
    Mr. Ortiz. General, would you like to add to----
    General Conway. Sir, we have several training aviation 
bases in Arizona, and California in addition to our training 
basis that we share with the Navy in Texas. And our concern 
actually is more with low-flying helicopters, and the potential 
danger that some of these wind farms could have if the pilots 
aren't well aware of their presence.
    And that is the sort of extraordinary effort that we are 
taking at this point to make sure that wind farms that we might 
put on our own bases--and we have some at the Marine Corps 
Logistics Base, Barstow. But others in the vicinity of some of 
our training bases are well noted on our aviation maps. And the 
pilots in low light or low-visibility conditions are certainly 
aware of their presence.
    Mr. Ortiz. Admiral.
    Admiral Roughead. Yes, sir. We pay particular attention to 
all of our training space. Not just the air training space that 
affects the bases in Texas, but all around the country. And our 
local commanders pay particular attention to it. Here in 
Washington we do. And when we get a sense that there could be 
some encroachment, engage with the appropriate agencies, and 
communities. Because in many cases the communities are seeking 
this sort of development as well--to try to come to a solution 
that allows us to accommodate the important training needs that 
we have, and the needs of the communities. So we do pay very 
close attention to it.
    Mr. Ortiz. Again thank you so much for your service, and 
thank you for joining us today.
    Admiral Roughead. Thank you.
    The Chairman. Thank the gentleman.
    Mr. Bartlett, please.
    Mr. Bartlett. Thank you all very much for your service.
    Admiral, I guess what you see depends on where you sit. My 
understanding is that the Navy is able to respond to little 
more than 40 percent of the requests of the combatant 
commanders for submarines. So I guess critical depends upon 
where you sit. I think that the new Chinese anti-ship missile 
may be a huge game changer. I see little recognition of that in 
the QDR, in the budget, or in your testimony today.
    Admiral, you mentioned that you were aggressively pursuing 
unmanned aircraft in the Navy. And yet we are not aggressively 
pursuing unmanned ships in the Navy. I know why. It is because 
we have too few ships. They are too valuable. We have people on 
ships not because we need them there to sail the ships, but 
because we need them there for damage control.
    We need to be moving to a very much larger Navy with very 
much smaller platforms so that we can move away from manned 
platforms. Half the cost of keeping the ships at sea as you 
know, sir, is the personnel. Which means if you get rid of half 
the personnel, you can have 50 percent more ships. If you get 
rid of all the personnel, you have 100 percent more ships.
    We are going to be attacked where we are the weakest. I 
know that during the Clinton years we largely waived EMP 
[Electromagnetic Pulse] hardening on most of our new platforms. 
To what extent are you EMP-hardened? How much fighting 
capability would remain if you had an EMP lay down of 100 
kilovolts per meter, which is but half of what the Russian 
generals told the EMP Commission the Soviets had developed, and 
the Russians had available?
    Admiral, I am very pleased to note your emphasis on--focus 
on energy. I hope that means that you are aggressively 
supporting the increased nuclearization of our major platforms. 
Seems to me kind of silly to have a carrier that is fueled for 
30 years, and it is supported by ships that are fueled for a 
few days.
    These are my observations, my comments, my questions. Could 
you respond? Thank you.
    Admiral Roughead. Yes, sir. The--first off on the meeting 
of the 40 percent of the requirements. As I mentioned, the 
meeting of the critical requirements as a former fleet 
commander--I was the one that had to fulfill those needs. And I 
am very comfortable with the fact that the critical 
requirements are being met for our submarine force.
    The survivability relative to electromagnetic pulses is--it 
is indeed a consideration and something that as we put our 
network architectures together is working through that 
survivability is very key to us. With regard to your specific 
question about the strength of the pulse and the effect on our 
systems, it--with that detail of question, Mr. Bartlett, I 
would like to be able to take that one for the record if I 
could and get back to you.
    [The information referred to can be found in the Appendix 
beginning on page 121.]
    Admiral Roughead. As we look at ships of the future and 
what that force must be in previous testimony and in 
discussions, I have said I do not have an aversion to nuclear 
power, but I think that there are more factors involved than 
simply the cost of the fuel itself. It is the construction 
cost. It is the maintenance cost. It is the cost of the people. 
And I believe all of that needs to be taken into the equation 
as we look at alternative energy systems for our force of the 
future.
    With regard to the unmanned systems, the one area that I 
would also add where we are moving forward on is an underwater 
unmanned systems which I think are extraordinarily important to 
our future and which they themselves have some unique power 
requirements and we are working on that. But all of that is on 
my scope and I look forward to working on them in the coming 
months and years.
    Mr. Bartlett. You will address the other two questions in 
writing, my question about the Chinese anti-ship missile and 
why you still have people on ships?
    Admiral Roughead. Yes, sir. The one of the reasons that we 
have people on ships is that we have not gotten to the full 
automation that we need, but I think the LCS is a perfect 
example of what we are doing to bring people off of ships.
    The Chairman. I thank the gentlemen. The gentleman from 
Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. I want to thank all of 
you including my former governor and attorney general, 
Secretary Navy Mabus--Secretary of the Navy Mabus for being 
here. I thank all of you for what you do.
    General Conway, let me start by saying that today's 
Washington Post had a very disturbing photograph on the front 
of a mine resistant vehicle that had been attacked in 
Afghanistan. I would like to take the occasion to say that it 
is my hunch that had that been an up-armored Humvee [High 
Mobility Multipurpose Wheeled Vehicle], every Marine in that 
vehicle probably would have died. It is my hunch that because 
of that vehicle, probably every Marine in that vehicle lived.
    And I want to commend your General Brogan for the job he 
has done in putting that program together on what seems to be 
now an afterthought, fairly short notice and the outstanding 
job he has done and I would hope that he would be properly 
recognized for that.
    Secretary Mabus, you had the distinction, if my memory is 
right, of being the youngest attorney general and the youngest 
governor in Mississippi. I want to give you a third distinction 
and that is the fleet only grew on your watch. The bleeding 
started about 1990 best of my knowledge. Last year for the 
first time, we actually grew the fleet. We went from 285, which 
is too small, to 287, which is too small, and the irony is that 
you and many other CNOs have come before this committee and 
said we need a 313-ship Navy, but your budget request would 
actually shrink about three ships. That is unacceptable.
    If administratively you can't get us towards 313, then we 
are going to have to do it legislatively. Now, one of the ways 
we can do this is we are going to commission 7 ships this year, 
but you are asking for permission to decommission 10. That 
doesn't get you there. That is going the wrong way. So I want 
to--I have had this conversation with our Chairman and I--and I 
just want to put you on notice as my friend and someone who I 
want to work with.
    Decommissioning 10 ships this year is unacceptable. It is 
going to be my intention with the support of our Chairman to 
introduce to have in this year's bill that we are going to have 
legislatively a three-to-two ratio. For every three ships that 
are commissioned by the Navy, you will be giving commissions to 
decommission two. That is going to get us finally on the right 
track towards 313. Again, if it's not done administratively we 
are going to have to do it legislatively.
    One of the proposals that Captain Ebbs has wisely asked the 
Navy to look into will be a SLEP [Selected Life Extension 
Program]-program certified fixed engine for your frigates--for 
about $3 billion, we can keep those approximately 25 frigates 
in the fleet for another 5 years. Now, that would be my first 
preference. If you have a better preference to grow the fleet, 
I want to hear your ideas, but I think that is certainly 
something we need to look into particularly for the missions 
you mentioned off of Latin America, for chasing pirates off of 
Somalia.
    That frigate is more than adequate. If we need to spend 
some money to get another 5 years out of those hulls, then 
let's do it and let's start planning on doing it.
    What I want you to look into now is, you know, we keep 
making mistakes. One of the concerns of the F-35, and I am 
totally in support of, the CNO's plan to get the F-35 into the 
fleet. The question that is being asked as far as the thermal 
footprint of the F-35, on the ships we are constructing today, 
are we planning ahead for the delivery of that vessel so that 
the thermal footprint as far as the backlash shield on the 
carrier and the deck, the large big deck amphibs--that this 
plane is going to fly off of, are we taking the steps today to 
build them to handle that thermal footprint for when that plane 
is delivered a few years in the future.
    Secretary Mabus. And to my friend, Gene Taylor, who I 
served with in other capacities, in terms of the last question 
that you asked, the thermal footprint, we are taking the steps 
both with the blast deflector on the carriers whether it will 
need to be strengthened at all, but if it does, that is a very 
straightforward fix for that blast deflector. We are beginning 
tests on the USS Wasp, a big deck amphib, in terms of the STOVL 
[Short Takeoff and Vertical Landing] version and the thermal 
footprint coming down from that for the Marine version.
    So yes, we are beginning to take steps to make sure that 
when the Joint Strike Fighter joins the fleet that the fleet is 
absolutely ready and capable of handling it.
    Mr. Taylor. Mr. Secretary, in the 8 seconds I have, take a 
look at the 10 ships you asked to decommission, narrow that 
down to two because we need to stop the bleeding this year. 
Thank you, Mr. Chairman.
    The Chairman. Thank the gentlemen. Gentleman from Missouri, 
Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman, and thank you to all of 
you in the panel here this morning. I had a couple of quick 
questions. I hope they are quick. The first would be Admiral 
Roughead and also General Conway. We have had some trouble with 
welding and--particularly welding, I guess, on some LPDs 
[Amphibious Transport Dock Ships] and part of that it turns out 
is a workforce problem where we don't have enough welders 
sometimes with the timing of when we build ships.
    So my question is I understand that there could well be a 
serious workforce problem at the shipyards out in San Diego and 
we currently have three LPDs scheduled for 2011, 2013 and 2015. 
My first question is would you be open-minded at least if it 
saves money and if it averts some of that work--it puts the 
work in a more consistent way across the yard to consider 2011, 
2012 and 2013--excuse me, the MLPs [Marine Landing Platform]. 
Did I say LPDs? The MLPs which were the Marine landing platform 
ships.
    If we were to consider 2011, 2012, 2013 as opposed to 2011, 
2013, 2015, are you open-minded to at least looking at that if 
it saves money?
    Admiral Roughead. Thank you for the question, sir, and I 
would say that the shipbuilding plan that we have in place is 
one that balances many factors to include how that money is 
spread over time and what the needs of the Navy are and the 
development of that. As you know, the MLP is also a new class 
of ship and acceleration there may not be possible. So I think 
as we look at that, we have to be very mindful and very careful 
of how that balance can be affected.
    Mr. Akin. Certainly. And obviously there is a lot of factor 
that goes into that. My second question is my understanding is 
that your intent is to meet the March 1st goal in terms of the 
Joint Strike Fighter situation to get the discount on buying F/
A-18s at a lower price.
    First of all, is it correct that you do intend to file that 
paperwork on March 1 to allow us to get a discount on the price 
of the planes?
    Secretary Mabus. We received the letter of intent from the 
contractor on Monday. We know that the deadline is March 1st. 
We are working with the Office of the Secretary of Defense who 
would have to make that notification to meet that--to meet that 
deadline.
    Mr. Akin. So the supplier did give us that 10 percent 
number that we had talked about then?
    Secretary Mabus. Yes.
    Mr. Akin. Okay. And so your intent then is to meet that 
deadline as far as you know?
    Secretary Mabus. As we are working hard to meet that 
deadline given the very limited time we have got to do it, and 
we are working very hard with the staff of the Office of the 
Secretary of Defense to do that.
    Mr. Akin. Good. Thank you. Third question is, and this is 
something that I have been beating this drum for a couple of 
years, and--but I am confused and I finally started to figure 
out why I am a little confused in this subject.
    In March of 2008, the department briefed the committee that 
the shortfall of fighters was 188. In January of 2009, we were 
told it was 243. In March of 2009, we were told the shortfall 
was 312. As if by magic 2 months later of 2009, we are told the 
shortfall was 146. The beginning of this month, the Secretary 
of Defense testified the shortfall was 100 aircraft. Last week, 
the committee was told the shortfall was 177. And then 5 days 
later, my staff was told the shortfall was 100.
    So that is why I have been a little confused about this. We 
have gotten some different numbers. None of the numbers said 
zero and all of them said we do have a fighter shortfall. So I 
guess my next question would be in order to deal with that 
problem, would you consider purchasing more aircraft? Is that 
at least one option on the table, yes or no?
    Admiral Roughead. Mr. Akin, we have been working the strike 
fighter management very, very carefully and particularly in the 
case of Navy, we have made some adjustments to squadrons. So we 
have been bringing our number down and we will continue to look 
at how we manage our strike fighter force into the future. It 
in no way should detract from the imperative to get to Joint 
Strike Fighter and the foremost in my mind is----
    Mr. Akin. Excuse me, sir. I--my clock has only got 5 
seconds.
    Admiral Roughead. Okay.
    Mr. Akin. So the quick question is would you consider 
purchasing additional aircraft as one possibility to deal with 
that problem?
    Admiral Roughead. My focus right now, sir, is on looking at 
the SLEP program for our A's and D's [F/A-18 A and D models]. 
That is where I am going to be spending most of my time looking 
at.
    Mr. Akin. But you didn't answer my question.
    The Chairman. Admiral, would you like to answer his 
question so we can go onto the next one--questioner?
    Admiral Roughead. As we go into POM [Program Objective 
Memorandum] 12, sir, we are going to look at how to best manage 
the strike fighter fleet. We have some procurements of 18s [F/
A-18s] laid into this budget, but I also believe it is 
important that we look at the other levers as well.
    The Chairman. Dr. Snyder, please.
    Dr. Snyder. Thank you, Mr. Chairman. Secretary Mabus, you 
talk about standing on the USS Little Rock and General Conway 
was born in Arkansas. Admiral Roughead, if you told me you ever 
served on the USS Razorback, which is a retired submarine 
sitting in the Arkansas River, my Arkansas trifecta will be 
complete. But General Conway, a quick question and you can give 
us a quick answer as you want.
    Are you satisfied that the rules of engagement in 
Afghanistan are satisfactory given the difficult challenge our 
men and women have there?
    General Conway. Yes, sir, I am. I ask that question every 
time I go which is about once every 4 months. My commanders are 
comfortable with it. We are pretty good at it and because it is 
who we are with our air ground team and they understand the 
rationale behind. So they support it.
    Dr. Snyder. Good. Thank you. Secretary Mabus, the topic has 
come up about ``don't ask, don't tell'' and I had a 
conversation yesterday with an officer who is currently serving 
on active duty who is a lesbian who says, ``Okay. We appreciate 
they are doing the study. How the hell am I going to be able to 
participate in that study?''
    How will somebody who is currently gay or lesbian serving 
in the military be able to share their views on the impact on 
readiness, anything else intel, without being outed under the 
current policy?
    Secretary Mabus. It is at least my understanding that as 
this study is being shaped by general counsel, the Department 
of Defense, Jay Johnson, and the head of the U.S. Army, Europe, 
General Ham, that they are going to try to have mechanisms for 
anonymous input so that there would not be the jeopardy of 
violating ``don't ask, don't tell'' to simply respond to the 
survey. As I said, it is early in the process of developing 
this survey. But when--but Jay Johnson, the General Counsel of 
Defense, said that they are trying to structure it in that way.
    Dr. Snyder. Yesterday I asked General Schwartz, and you may 
have heard about this. I assume, Secretary Mabus, that you and 
the Admiral and General are familiar with this split of 
authority we currently have between the circuits regarding 
``don't ask, don't tell'' between the Witt case in the Ninth 
Circuit, and the Cook case in the First Circuit. And so when 
the question is asked, ``Should there be a moratorium?'' we 
have this--you all have a challenge that has been laid on you 
in the fact that the law has changed in the Ninth Circuit.
    How are you all currently responding to the fact that the 
Ninth Circuit has conferred Constitutional protections of what 
they are calling intermediate scrutiny under the due process 
requirements? How are you all responding to that in how do you 
process cases in the Ninth Circuit?
    Secretary Mabus. Again it is my understanding, Congressman, 
that we are--and we do understand the split of decisions 
between the two circuits right now. That we are proceeding to 
follow the law as written across the Navy and the Marine Corps 
as the--I believe that----
    Dr. Snyder. So you are going to ignore the Ninth Circuit 
opinion?
    Secretary Mabus. No, sir. But I believe that that opinion 
is being appealed.
    Dr. Snyder. No, it is not.
    Secretary Mabus. Try to recognize----
    Dr. Snyder. It is not being appealed.
    Secretary Mabus. Then I am incorrect.
    Dr. Snyder. It is not being appealed. And that is the 
challenge. I am not harassing you all about this. I think this 
is a--this is one of the problems we are going to have when we 
say we can study this for a year, and put this off.
    We have a--we now have people that have Constitutional 
protection in the Ninth Circuit at some level that we expect 
you to respond to. The problem is when the admiral sends them 
to Little Rock, or General Conway sends them to the East Coast, 
they lose that protection. And I am not sure how this gets 
worked out. I suggested yesterday one way to do it would be to 
make the venue for all these cases be in the Ninth Circuit. 
Then you have some consistency.
    But you--General Conway, I think you appropriately said 
there is some confusion. That there would be a moratorium. You 
already have confusion. There is already legal confusion that 
you all didn't bring on yourselves. It is being laid on you. 
But I think you are going to need to figure that out, and 
fairly quickly. Cause it is currently the law in the Ninth 
Circuit. And it is not being appealed.
    So I think this will be an ongoing discussion. By the way, 
the--recognizing the venue of the Ninth Circuit might deal with 
some of Senator Levin's concerns. I haven't talked to him about 
it. But it may be a way of getting at some of this transition.
    I wanted to ask have you all--the Andy Krepinevich Group 
put out this study called ``Why AirSea Battle?'' and talks 
about Iran, and China, and where we look at things going in the 
future. Admiral Roughead, have--are you familiar with that--his 
report?
    Admiral Roughead. Yes, sir. I am. And it is being reflected 
in the air-sea battle that the Navy, the Air Force, and the 
Marine Corps--the air-sea battle study that we are conducting--
--
    Dr. Snyder. Its currently undergoing?
    Admiral Roughead. Right. Right.
    Dr. Snyder. Thank you. Thank you, Mr. Chairman.
    The Chairman. Who is next? The gentleman from Virginia, Mr. 
Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And General, and Mr. Secretary, and Admiral, we thank you 
for being here. You are all good men. And we appreciate your 
service to our country. But even good men can take positions 
some time that can be detrimental to I think the well-being of 
the country. And I was a little taken aback, Mr. Secretary, by 
your statement that the shipbuilding plan that was sent over is 
going to respond to the Chairman's concern about the number of 
ships that we have in the Navy.
    And I am concerned for two reasons. One is that the number 
of ships that we have in the Navy. And I am concerned for two 
reasons. One is that OMB [Office of Management and Budget] 
disagrees with your numbers. As you know they say it is on 
course to be at 270 ships as opposed to your projections. And 
when Secretary Gates sat exactly where you are sitting, he said 
that that shipbuilding plan was a ``fantasy.''
    When I look, Admiral Roughead, at your concern that what 
keeps you up at night is your worry about having the resources 
to have the ships that we need down the road. And then I look 
at your specific decision on Mayport, which is going to spend 
$1 billion with all the other needs we have. This is the 
strategic dispersal plan, which I understand is the basis upon 
which at least the chairman of the Joint Chiefs said was the 
basis upon his decision to think a carrier should be shifted to 
Mayport. Have you read this plan? The strategic dispersal plan?
    Admiral Roughead. There have been several strategic 
dispersal plans over the year, sir. And I don't know which one 
that----
    Mr. Forbes. This is the one that I understand was the one 
written by Admiral Robert Thomas. Have you ever read his 
strategic dispersal plan, which is the one that is always 
circulated as the basis for relocating the carriers?
    Admiral Roughead. Yes, sir. We are looking at strategic 
dispersal.
    Mr. Forbes. Have you read his plan?
    Admiral Roughead. I would have to look at that copy, sir, 
to see if I have seen it.
    Mr. Forbes. Have you ever read a copy by Admiral Thomas?
    Admiral Roughead. Yes, sir. I mean, we work on strategic 
dispersal, and determining where the best places for the fleet 
should be.
    Mr. Forbes. Are you familiar with Admiral Thomas?
    Admiral Roughead. Yes, sir. I am.
    Mr. Forbes. Do you have respect for Admiral Thomas, and his 
decisionmaking capabilities?
    Admiral Roughead. He is a very good officer. Yes, sir.
    Mr. Forbes. Have you ever asked him the risk assessment 
that he placed on anything happening that would necessitate a 
shift to Mayport?
    Admiral Roughead. Yes, sir. In fact Admiral Thomas works--
worked for me. So when we were----
    Mr. Forbes. And did he tell you that that was a very slight 
risk?
    Admiral Roughead. The strategic dispersal plan is based on 
the consequences of what could happen in the Tidewater area 
should there be a manmade or natural disaster.
    Mr. Forbes. And it was a comparison specifically between 
that and Mayport. And did he ever tell you as he told me that 
the risk of that was very, very slight. In fact, less than 10 
percent.
    Admiral Roughead. And what risk is that, sir?
    Mr. Forbes. The risk that you would have a disaster that 
would create a problem that would have necessitated the move of 
the carrier to----
    Admiral Roughead. I think that we may be talking about two 
different types of risk--one natural, one manmade.
    Mr. Forbes. Let me focus, then, on the natural disaster 
risk.
    Admiral Roughead. Yes, sir.
    Mr. Forbes. Because in that program it states that there is 
no advantage between Norfolk and Florida. And yet if you look, 
Florida since 1900 has had 225 hurricanes. Norfolk 7. If you 
look at that channel going out of Norfolk, it is a mile wide 
whereas in Florida only one carrier sunk there would stop all 
the ships in it.
    But this is what I want to get to. Recently you have 
submitted a list of unfunded priorities to Congress. These are 
requirements your commanders say they need to fulfill their 
mission. General Conway has submitted a similar list. There are 
some huge things in there. Engines that we can't do. Planes 
that we can't get. Ship maintenance that we can't get. The cost 
of moving that carrier to Mayport would cover every single one 
of the requirements unfunded on your list, and on General 
Conway's.
    So my question to you is this. Which is more important? 
Moving the carrier to Florida, or doing all the items on the 
unfunded priority list that you have submitted, and that 
General Conway has submitted? Second one is, how do you agree 
with Admiral Thomas' strategic dispersal plan, but disagree 
with his risk assessment? And then thirdly, how do you explain 
by any objective, legitimate analysis that there isn't a 
benefit to Norfolk over Jacksonville, or over Florida when you 
look at natural disaster situations?
    Admiral Roughead. Yes, sir. I will take the first one last, 
because I think you are comparing Norfolk to Florida. I think 
it is important as you look at storm tracks to compare Norfolk 
to the Jacksonville area. And they are very, very similar. In 
fact, as a--yes, sir?
    Mr. Forbes. Just ask you to look at the charts of the two.
    Admiral Roughead. Yes, sir. I have looked at them many 
times. And Mayport fares quite well in that regard.
    The Chairman. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And thank you, 
gentlemen, again for being before us. I have various areas I 
want to ask you about. Just for note, I received today a copy 
of the letter, Secretary, that you sent to my senator, Dianne 
Feinstein, with respect to our Marine Base, Camp Pendleton. And 
one of the problems that we have in Orange County, which is 
moving traffic. Oh, and of course the--we have this toll road 
that we are trying to figure out how to build, et cetera.
    So I would like to in the near future have a discussion 
with you. We don't have to do it here today--about this and 
what we might do to maybe still try to find a solution with you 
all.
    I just want to say that on ``don't ask, don't tell''--
obviously; Mr. Snyder piggybacking on many of his remarks--is a 
big issue for us. And in California in particular being in that 
Ninth Circuit court. And just want to note that it is my 
understanding that, for example, out of all--I do a lot of work 
with our NATO allies, and out in the European theater as you--
many of you know. And just would like to note that I believe in 
speaking to most of my colleagues from other parliaments out 
there, that only Turkey and the United States as members of 
NATO are the only ones who have limited policies, or an actual 
ban on having gays in the military.
    So I think it is incredibly important that we address this 
sooner than later. And the parliamentarians out there--our 
colleagues--said that the--when they--when some of them went to 
implement this the quicker they went with it, the easier it was 
to get to it. So just from that standpoint--and I have said 
this to Mrs. Davis, our personnel subcommittee chairwoman, that 
I would like to see this addressed this year rather than sit 
around waiting for some more dialogue.
    I want to talk a little bit to something really positive 
that we heard the other day from the Secretary when the 
Department of Defense took a very commendable step to ban the 
prohibition of women from serving on our Navy submarines. I 
think it is very forward-looking. I think it is time to do 
that. We still sometimes even have a discussion about whether 
women should be in the military on this committee. Thank God we 
haven't had to vote on that for the last 5 or 7 years.
    And we all know that one of the reasons is that there is so 
much talent in that 50 percent of potential work force. My 
question to you, Mr. Secretary, is--that I understand that this 
is just the beginning, and there is a lot of work to get 
through in order to make this happen. I would like you to 
address what are the challenges that you are going to foresee--
that you foresee with respect to this. And how might this 
Congress help you to move forward that issue of doing that.
    And before you answer that, let me just pose another 
question out to our commandant. And then I will be quiet. And 
hopefully you guys can answer this. And that would be with 
respect--commandant to the U.S. Marines undertaking the 
operation Marjah there in Afghanistan in the last few days. I 
am interested to know the role that the Afghan national army 
played in that.
    How many of their troops were involved? And what you think 
the assessment is there? In particular, I think given to, and I 
believe it was General Petraeus who said, ``We might be at this 
at least for 12 to 18 months, and that may fly in the face of 
the 18-month limit that Mr. Obama discussed with respect to 
Afghanistan.'' So if, Mr. Secretary, you could answer that 
first question. And then, General, get your thoughts together 
to answer the other?
    Secretary Mabus. We learned a lot of lessons integrating 
female sailors onto our surface ships that we can apply to 
integrating women into the submarine fleet. For starters, the 
two platforms that women would be going to first. The SSBNs, 
and the SSGNs [Nuclear-Powered Cruise Missile Submarines] don't 
require any modifications to their--to their hull structure--to 
their compartments or berthing or anything.
    The challenges that were faced, and faced very successfully 
when women were integrated onto our surface fleet were things 
like making sure that we had a critical mass of women on a ship 
so that women were not too small a group. To make sure that we 
had a senior--a more senior woman officer at first. A 
department head to be a mentor to the younger women coming in 
for their first tour at sea.
    And also to make sure that we reach out to the submarine 
force, and to the families to make sure that any concerns that 
they have are addressed. And we think that they will be. And 
that this will be a very successful integration.
    General Conway. Ma'am, with regard to the Afghan national 
army and police, roughly 4,000 is the answer in terms of 
numbers. They have a good fighting spirit. They are not nearly 
as sophisticated as we are at company and battalion level. But 
in terms of actual small unit tactics, they mix it up pretty 
good. We think that Marjah will be a contested area for as long 
as we are there, or until the Taliban pack it up. It is a drug 
center. It is an area where they have had a long-term presence. 
In some ways they have families there. So although we intend to 
secure the area and put the Afghan police in eventually to help 
control it, the nature of an insurgency is that they could well 
be back in small numbers attempting to contest the area. So I 
think General Petraeus is probably right.
    The Chairman. Before I call on the gentleman from South 
Carolina, General, where are we on Guam?
    General Conway. Sir, at this point I think it is fair to 
say that we are awaiting the determination of the Japanese 
government in terms of how they see their part of this. In the 
meantime, it is fair to say we continue to look at what Guam 
means. Again, you nailed it in your opening statement in terms 
of the strategic importance, we believe, of armed forces in the 
Pacific, and of course particularly Marines.
    One thing that has changed somewhat since the original 
agreements is that we have grown the force by some 27,000 
additional Marines, and 3,000 or 4,000 of those would be 
assigned to the Pacific. So we are trying to balance the 
numbers in our own thought process with regard to established 
agreements.
    So at this point, it is between governments and we very 
much await the next determination by the Japanese government in 
terms of how they think we should go forward.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And I actually 
appreciate your bringing up Guam before we could begin, because 
I visited, and I know how strategically located it is. Also, 
the people of Guam should be appreciated. They are so 
patriotic. The highest percentage of National Guard membership 
of any state or territory of the United States is Guam. And 
what wonderful people.
    And General, Mr. Secretary, Admiral, thank you for being 
here today. I was very grateful to grow up in Charleston, South 
Carolina. And I grew up in the shadow of the Navy base, and so 
I have a great appreciation of your service and Navy and Marine 
personnel, and we are grateful to have the Nuclear Power School 
in the community. It is a great opportunity for young people.
    I am honored now to represent Parris Island Marine Corps 
Station, Beaufort, Beaufort Naval Hospital. And then, I am 
particularly grateful I have a son, active duty Navy, and he is 
following in the tradition of his late grandfather and uncle, 
who were dedicated Marines.
    So Mr. Secretary, I am concerned about the current plans 
for wounded warrior support at the new Walter Reed National 
Military Medical Center when it opens at Bethesda in September, 
2011--it is, or 2011.
    It is not in the same level of support currently furnished 
by the Army at Walter Reed. Wounded warriors who move to the 
new medical center will experience a significant degradation of 
services and support and I believe that is unacceptable.
    As an example, I understand that there will be a shortfall 
of 150 barrack spaces when the new medical center opens for the 
wounded warriors who are currently in the warrior transition 
barracks at Walter Reed.
    What assurances can you give that all of the wounded 
warrior support now provided at Walter Reed, including first 
priority for barracks space on the Bethesda campus, will be 
available when the new medical center opens in September, 2011?
    Secretary Mabus. Congressman, there is no more important 
thing that we do than to care for those who have borne the 
burden of battle and who return as wounded warriors. All three 
of us on a very regular basis visit Bethesda, visit our wounded 
warriors that are returning.
    And we are very focused in the Department of the Navy, and 
I think it is fair to say in the Department of Defense, to 
making sure that as the transition occurs, as Walter Reed moves 
to the Bethesda campus, that no wounded warrior fall between 
the cracks. That there is no degradation of care. That there is 
absolutely world-class care, as you in Congress and we in the 
Department know that there have to be.
    You can be assured that our attention is focused very 
directly on this. And not just on putting Walter Reed and 
Bethesda together, but also on the myriad of other things that 
wounded warriors require from our Wounded Warrior Regiment with 
the Marines, our Safe Harbor Battalion with the Navy, with 
their non-medical care, with making sure that they are 
transitioned either back to the fleet, back to their Marine 
brethren, or into their community, is seamless.
    We are trying to work with the VA [Veteran's 
Administration] to make sure that there is no gap there. And 
finally, one thing that I am particularly proud of, we just did 
a wounded warrior hiring conference to make sure that as 
wounded warriors recover, and as they transition out back to 
the civilian workforce, that they have a job waiting for them 
when they get there.
    Mr. Wilson. And Mr. Secretary, I want to commend you on 
just what you have cited. And even if it took up all my time, 
the issue is that important. But particularly on barrack space, 
that needs to be addressed, so I hope that as you pursue the 
other issues relative to this and the wounded warrior program, 
I wish the American people could see what has been done on 
behalf of the young people who have lost arms, legs. It is 
extraordinary the efforts that have been made, and very 
heartwarming. But I am very, very concerned about the barracks 
space, so I hope that will be an emphasis that you have.
    Secretary Mabus. Yes, sir.
    General Conway. Sir, if I can complement the Secretary's 
answer for just a moment, and perhaps allay some of your 
concerns. We certainly need barracks space, especially for our 
Marines, and I would argue potentially sailors, who come for 
initial treatment for their families, for themselves, and for 
people who are assigned back to Bethesda for follow-on 
treatment.
    But our intent with our casualty care is as soon as 
possible, to get them out closer to home station, closer to 
their homes if it is a recovery period. And we do not want to 
have them at Walter Reed-Bethesda for any longer a period of 
time than is absolutely necessary. So I think that will 
mitigate some of your concern in this regard.
    Mr. Wilson. Excellent. Thank you very much.
    General Conway. Yes, sir.
    The Chairman. The gentlelady from California, Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and certainly 
Secretary Mabus, and Admiral Roughead, and General Conway, 
thank you so much for your extraordinary service to our 
country, and for worrying I think every day about the men and 
women who serve. I know you show a great deal of compassion for 
the mission that they are performing and how they are 
performing it.
    I wanted to actually ask several of the questions that have 
already been asked, but have sort of a brief follow-up to a few 
of those. On the MLP, I am wondering, once you have a better 
sense of how it is going to work together, if there is any 
opportunity to bring that schedule together so that there is 
more predictability on the part of those who are trying to 
build those for us? Is there any chance of trying to do that, 
rather than spreading it out once we get underway?
    Secretary Mabus. Well, as the CNO said, it is a new hull 
form----
    Mrs. Davis. I missed your response, but I wanted to follow 
up.
    Secretary Mabus [continuing]. And one of things that we 
looked at was the health of our industrial base. And trying to 
ensure that there was a base of work spread out over the 5 
years so that our shipbuilding yards would be able to maintain 
that critical workforce, that critical infrastructure that we 
need so much.
    And that was one of the factors, although not the 
determining factor, but one of the factors that went into 
putting those ships in 2011, 2013, and 2015.
    Mrs. Davis. Yes. I think they would probably suggest that 
it is better for them to bring them together in terms of their 
workforce, but perhaps that could be explored further at 
another time.
    And women on submarines, is there any role for Congress to 
play at this point? Is there anything that you need from us?
    Secretary Mabus. I think we are well along. The Secretary 
of Defense has done the notification to Congress that is 
required by law that we are beginning to proceed down the 
track. And I think that the support of Congress on this is 
crucial, but I think that we have all the levers that we need 
to move expeditiously to do this.
    Mrs. Davis. Okay. Nothing in the reauthorization language? 
You are set?
    Admiral Roughead. There is a 30-day wait period, ma'am, so 
any impediment to that would not be helpful. So----
    Mrs. Davis. All right. Thank you.
    Admiral Roughead. And it is a good plan, I can assure you 
of that. And the submarine force is prepared to execute.
    Mrs. Davis. Thank you. I wanted to turn--very briefly, you 
may be aware there is a DOD-wide program called My Spouse 
Career Advancement Account that has recently been frozen. I 
know just from several weeks ago even speaking with many of the 
spouses, they count on this. I mean, this has really been so 
important to them.
    And could you enlighten us a little bit as to whether or 
not there is a possibility that, even though it has been frozen 
for now, that those spouses who are in the program can continue 
with their education? And do you think that there is, again, a 
role for Congress in weighing in on this right now?
    Secretary Mabus. After the question was asked yesterday, 
looked into this last evening. The information that I received, 
because this is a DOD-wide program, is that the site was frozen 
for software concerns for some other types of concerns on 
there. But that the people who were receiving the payments 
could expect to continue to receive those payments. That was 
the information I got, as I said, last night from DOD.
    Mrs. Davis. Oh, are you saying that people in the program 
will continue? What about just trying to apply now? Or is the 
program itself going to be discontinued for some time?
    Secretary Mabus. That is an answer I cannot give you. I 
don't know.
    General Conway. Ma'am, if I can help. I also researched it 
and it is my understanding that this is a temporary halt to the 
program, not a close-out of the program, pending the problems 
that the Secretary spoke of.
    Mrs. Davis. Okay. What might be important is communicating 
as best we can, obviously, to the number of people that are 
very concerned about this out in the community. And I think we 
all agree on, this is an important quality-of-life issue for 
our service men and women, and some way of clarifying that is 
very important right now.
    Secretary Mabus. The only thing I would like to add right 
now is that I completely agree with the importance of this 
program, with what you said.
    Mrs. Davis. Yes, thank you. The QDR points out the need to 
increase key enabling agents--assets, I am sorry--for the 
Special Operations Forces, including logistics, communications, 
intelligence, and other critical capabilities. And the Naval 
Special Warfare Command depends on the Navy, of course, for 
certain enablers.
    Yet at the same time that they are looking to the Navy for 
that, the Navy's end strength is coming down, as we know. And I 
am wanting to know whether there is an issue here in terms of 
being able to have out of that pool of specialists, some of our 
special warfare people that would be in the future?
    Admiral Roughead. As far as the Special Warfare, our SEALs 
[Navy Sea, Air and Land teams], we have a great plan there. 
There are many demands for people, and we are looking at how we 
can best resource that now.
    Mrs. Davis. Thank you.
    The Chairman. I thank the gentlelady.
    And Mr. Conaway, the gentleman from Texas.
    Mr. Conaway. Thank you, Mr. Chairman. Chief, thank you for 
being here. Mr. Secretary. Commandant, it is great to see you 
again.
    That was a great day in Fredericksburg, Texas, when you and 
your bride came down for the ribbon-cutting on the new wing of 
the Nimitz Museum. And with some training and hard work and 
dedication on his part, Mike Hagee might be able to MC 
something a little better than--next time.
    My issue is going to be a little bit more mundane. It is 
not nearly as glamorous as some of the other stuff, but it 
stretches across everything you do. And that is, the commitment 
by the three of you to audit the financial statements of the 
respective entities that you are responsible for.
    Mr. Secretary, you made the statement a while ago about 
bold steps required for the alternative energy. I appreciate 
the same bold steps for the Department of the Navy to be clean, 
unqualified, audited, financial statements and everything that 
entails. Internal controls, all the other systems that we have 
in place. And that the business transpiration agency has the 
dubious distinction of having responsibility but no authority 
to make things happen across a lot of lines.
    I want to brag on the Marine Corps. Commandant, you have 
said you will get it done, and I hope there is a way to hand 
off that same commitment to the 35th commandant of the Marine 
Corps, because it doesn't happen, period, without the three of 
you gentlemen saying make it happen.
    Now, I understand you got a zillion other things that might 
look more important, but the benefits are indisputable of being 
able to have good data, quick data. As I told the Air Force 
yesterday, if we ask you guys a question that stumps you, some 
person on the back bench will get into a panic mode to try to 
cobble together some answer out there with systems that may 
involve 50 different systems that are not integrated, they are 
not doing the things they do.
    So simple heading out, or at least an answer for the 
record, is that--is that commitment to get the Navy 
Department--Department of the Navy--audited, and the Marine 
Corps audited way up on your list of things that you need to 
get done?
    Secretary Mabus. Congressman, my first elected job was 
state auditor of Mississippi.
    Mr. Conaway. Oh, fantastic.
    Secretary Mabus. I understand the value of good audits in 
government. And I do want to echo what you said about the 
Marine Corps. We are way down the line on getting a fully 
auditable statement for the Marine Corps. And we are moving in 
that direction for the Navy.
    And in fact, we have got a Deputy Under Secretary of the 
Navy for Business Transformation that that is one of the prime 
jobs that that individual is accountable for. And I do check on 
that on a very regular basis.
    Mr. Conaway. Okay. CNO, I don't know if you have got a dog 
in that fight, but any push you could help to get the----
    Admiral Roughead. Absolutely, sir, because I think your 
comments are right on the money.
    Mr. Conaway. Okay.
    General Conway. Sir, you know the term ``wind dummy''? We 
have volunteered to be the wind dummy on this one with some 
trepidation, but it is absolutely the right thing to do and we 
are proceeding apace.
    Mr. Conaway. Well, thanks. I mean, if the good citizens of 
District 11 keep sending me up here, I want to keep niggling 
you guys about this because I do think it is important. So with 
that, Mr. Chairman, thank you all for your long service to our 
country. Chairman, I yield back.
    The Chairman. Thank the gentleman from Texas. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here, General Conway and Admiral Roughead. Thank 
you both for your service to our nation.
    I would like to turn my attention, if I could, to Ballistic 
Missile Defense issues right now. And as the long-range 
shipbuilding plan lays out, the President's new Phased, 
Adaptive Approach to providing missile defense to Europe will 
have a significant impact on the Navy's resources obviously in 
the years to come. How does the Navy plan to support its 
growing missile defense requirements while fulfilling its 
current missions including anti-ballistic missile ship defense?
    Admiral Roughead. The way that we will deploy it, sir, is 
in consonance with what the combatant commanders have 
requested. We have been performing the mission on the Western 
Pacific now for a few years and the demands have also been 
added into the Arabian Gulf and into the Mediterranean.
    So in our plan, we are taking the number of Ballistic 
Missile Defense ships in this FYDP from 21 to 38. We are 
increasing the number of missiles which is as important to be 
able to not have to be changing missiles around. But the fact 
that our ships are multimission ships allow them to do much 
more than missile defense and that is all managed by our Navy 
commanders in the regions where those ships are operating.
    So I am very, very pleased that not only are we building 
some more missile defense ships, but we are providing the back-
fits and we are increasing the missile inventory. And we have 
also been spending quite a bit of effort and time and the 
coordination between commanders in different regions and I 
believe we have advanced our missile defense capability quite a 
bit.
    Mr. Lamborn. Thank you. Mr. Secretary, do you have anything 
to add?
    Secretary Mabus. Just to emphasize what the CNO said. These 
are very capable ships in a number of missions and while we are 
retrofitting and building new missile defense ships, we are not 
losing sight of the other duties that they perform. And also, 
that in this budget we have asked for funds to fit a good many 
of our existing destroyers and cruisers, DDGs [Guided Missile 
Destroyers] and CGs [Guided Missile Cruisers], with the Aegis 
BMD [Ballistic Missile Defense] capability and in order to 
reach the end strength of those ships that we need to respond 
to all the demands.
    Mr. Lamborn. Let me ask that in a further point on anti-
ballistic, anti-ship ballistic missiles. Have you had the 
opportunity to review the recent study on different 
possibilities for defending against anti-ship ballistic 
missiles? And as a following to that, what are the various 
technological and at what platform solutions to this challenge?
    Secretary Mabus. We are very focused on anti-ship ballistic 
and cruise missiles. And one of the things that the CNO has 
said earlier in his testimony is that we are looking at 
technologies from other ships, particularly the truncated DDG-
1000, as we are going forward with the next generation of DDG-
51s to get sensor systems, radar systems.
    In the new DDG-51s, the SPY-3, coming off the DDG-1000, the 
air and missile defense radar so that we get a full picture of 
the battle space of both from anti-air and anti-ballistic 
missile and anti-cruise missile ships and an integrated hull on 
each ship and in a group of ships for integrated air and 
missile defense.
    Mr. Lamborn. Thank you. Admiral Roughead, on the DDG-1000, 
last year the administration decided to continue funding the 
DDG-1000 program for three ships. How is this program 
progressing and with regards to--with regards to both the hull 
and the mission systems equipment?
    Admiral Roughead. The program is progressing on track with 
regard to the development of the systems and also, it--the DDG-
1000 is under construction. So the issue will be one of the 
Nunn-McCurdy breach as a result of the truncation and the 
departments working its way through the appropriate steps that 
have to be taken relative to that.
    Mr. Lamborn. On that, let me ask you. It is my 
understanding that the Navy is pursuing a fixed price contract 
for the second and third DDG-1000. Is this accurate and what 
does that mean for controlling overall program costs?
    Admiral Roughead. My hopes are is that it will maintain the 
cost where it needs to be and we are pursuing those contracts.
    Mr. Lamborn. A big firm fixed price?
    Admiral Roughead. I would like to get back to you on that 
one, sir.
    The Chairman. We have three votes. However, let's go as far 
as we can and we will break for those votes and then return. 
Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Mr. Secretary, 
General Conway, Admiral Roughead, thank you so much for joining 
us today. We appreciate your hard work and efforts. I wanted to 
direct a question to Admiral Roughead just as a follow-up from 
Congressman Forbes' question.
    In looking at the analysis that was done, the risk 
analysis, about placing a home port facility there in Mayport 
and we had talked earlier with the Chairman of the Joint 
Chiefs, Admiral Mullen, about how much of a quantifiable risk 
assessment was done and then looking at that in that being very 
spongy as far as the--as a hard number on the risks that we are 
trying to mitigate with putting a carrier down there and then 
with the unfunded programs list that is out now that has about 
$530 million of unfunded needs there on that list, what that 
leads me to is to follow up on his question.
    And that is obviously your decisions revolve around ranking 
where your needs are. And can you tell me in relation to the 
unfunded needs list, would you say the unfunded needs are 
ranked higher or lower than the need to mitigate a risk to 
place a home port facility there in Mayport?
    Admiral Roughead. Well, I would say, sir, that the fact 
that when we built our budget and took it to the levels where 
it was, and as you know, our budget is a balance of many 
different needs that we have, that when I made the proposal on 
this year's budget, that--what we funded with regard to O&M 
[Operations and Maintenance] and the risk that we were taking 
was where I thought it was prudent to be and included in the 
budget are the preliminary steps for the home port in Mayport.
    So given the fact that the steps needed to build the port 
in Mayport were in our budget and those are the unfunded 
programs. Then the Mayport project has a higher priority for 
me.
    Mr. Wittman. Okay. I am trying to get from you where in the 
scheme of things though if you--obviously there are limited 
resources there and I know that you have--and we are still 
trying to figure out exactly where it is some of the planning 
dollars that go into beginning the process there at the 
location in Mayport, but also the unfunded needs list, you 
know, has, obviously, shipbuilding needs there, weapons 
procurement, ship maintenance and all of those things concern 
us because there are needs out there.
    What I am trying to figure is that within the finite 
universe of resources, if we are talking about a billion 
dollars to upgrade the port there in Mayport versus the $530 
million in the unfunded needs list, would you say that the $1 
billion needed in the years to come, and again, looking at your 
unfunded needs was that goes out in the same future, would you 
say that the $1 billion necessary to build the facility at 
Mayport is a higher or lower priority than the $530 million on 
the unfunded needs list?
    Admiral Roughead. Well, first, sir, the Mayport is not a 
billion dollar project. It is not a billion dollar project. It 
is just slightly over half of that.
    Mr. Wittman. Okay.
    Admiral Roughead. But what Mayport is, it is not a new 
carrier port. Mayport has been an aircraft carrier port since 
1952 and that dispersion has given us some strategic 
flexibility on the East Coast. What we are doing is we are 
bringing that port as a carrier port to be able to service our 
carrier fleet which is now all nuclear. So for me, that 
strategic flexibility is important. That is why I made the 
recommendation to the Secretary to go forward with that and 
then that was affirmed. And so that money in the plan to 
enhance the carrier port of Mayport is a priority.
    Mr. Wittman. Sure. Well, in the decisionmaking, obviously 
you are looking at what risks you would be mitigating by having 
a duplicative facility there in Mayport. And I guess my 
question is with the lack of quantifiable risk assessment that 
is going on there, is that risk high enough to substantiate 
that being put in front of the--if you say $600 billion or $600 
million versus the $530 million of the unfunded needs, tell me 
is there still--do you believe is the risk still high enough 
for having to move a carrier there that you would put the 
Mayport facility before the unfunded?
    Admiral Roughead. Sir, I believe that the risk of having 
all of our eggs in one basket for our aircraft carriers in the 
Tidewater area, and I don't dispute the value of--but having 
all of our eggs in one basket there when we have not done that 
on the East Coast or on the West Coast is not in the best 
interest of the Navy or the nation.
    Mr. Wittman. Okay.
    The Chairman. Thank the gentlemen. We have time for one 
more member, the gentlelady from Guam, 5 minutes.
    Ms. Bordallo. Thank you, Mr. Chairman. Mr. Secretary and 
Admiral and General, thank you for your testimony.
    Mr. Secretary, I appreciated meeting with you recently to 
discuss the military buildup on Guam and working with my office 
and the government of Guam to make sure that we get this 
buildup done right as our Chairman, Mr. Skelton, has stated 
over and over again. However, there remains significant hurdles 
to the military buildup. The recent news that the Port of Guam 
was denied a Recovery Act Grant funding from the Department of 
Transportation was deeply disappointing. Simply put, without 
funding for the port, the buildup cannot occur.
    Mr. Secretary, while I appreciate your leadership in DOD to 
support the port's grant, we need to know what the Navy is 
doing to address Guam's civilian infrastructure needs. Is the 
Navy working with the Department of Interior, the White House 
and OMB to develop a strategy to address the funding of 
civilian infrastructure requirements?
    Yesterday, I was at a meeting from 1:00 to 5:00 p.m. with 
the Department of Interior and various federal agencies to 
discuss the buildup. We concluded with this, number one, we 
need a funding plan for this buildup. And secondly, we need one 
coordinator to handle this buildup so the DOD doesn't point to 
the various federal agencies for funding and the federal 
agencies go right back and say, ``Well, this is DOD's 
responsibility.'' We are caught in the middle.
    I think it is important to note the EPA [Environmental 
Protection Agency] and their comments on the draft EIS 
[Environmental Impact Statement] also stated that the lack of 
information on infrastructure funding is one major reason for 
their low scoring of the document. Also, many of the civilian 
impacts are exasperated by the 2014 completion date. When does 
the Department of Navy believe it can complete construction? 
Given the government of Japan's indecision, isn't this the 
right time to extend the timeline to reflect reality?
    Secretary Mabus. I enjoyed our meeting as well, 
Congresswoman, and as far as the grant to Apra Harbor, you 
know, from the Department of Transportation following the 
meeting and following my trip to Guam to look at Apra Harbor 
and other things, I met twice with the Secretary of 
Transportation to urge him to give that grant to Guam and to 
Apra Harbor to fulfill that.
    In the Department of the Navy and, I think, in the 
Department of Defense, we support a government-wide approach to 
the Guam buildup. It is a very important move for us as it is 
for the people of Guam to echo what General Conway said. The 
strategic value of Guam and of moving Marines to Guam is 
crucial. We have in terms of our processes elevated Guam inside 
the Department of the Navy with the Guam Executive Council 
which meets on a very regular basis to make sure the decisions 
move quickly.
    The Department of Defense has set up the Guam Oversight 
Council along with the Deputy Secretary of Defense to do the 
same thing. We do need, I believe, to make sure that there is a 
whole of government approach to this very important issue 
because it is crucial for the Navy, and the Marine Corps to--
for the strategic dispersal of our forces, and for the buildup 
on Guam that we do this right as the Chairman----
    Ms. Bordallo. All right.
    Secretary Mabus [continuing]. Said in his statement.
    Ms. Bordallo. Mr. Secretary, my time is running out. But is 
there some way to recoup these funds for our port? Without the 
port development, the buildup just cannot continue.
    Secretary Mabus. My understanding is there may be other 
funds like this in the future that Guam can compete for. And 
once again, I will urge the Department of Transportation to 
fund that port in Guam, and to fund that particular grant that 
Guam has applied for, and I believe has made a very good case 
for.
    Ms. Bordallo. Thank you, Mr. Secretary. This is my greatest 
concern right now. We just had news of that a couple weeks ago, 
and it was a real blow to our people. Because you know, we had 
made plans for this. And as I said, if this doesn't go on--and, 
of course, the Japan decision also is important to us. But I 
would appreciate anything you could do to help us in this area.
    Secretary Mabus. Yes, Ma'am.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank the gentlelady.
    Mr. Secretary, is there any need or indication on where the 
Japanese government, is timewise?
    Ms. Bordallo. May.
    Secretary Mabus. In terms of their re-look at this issue, 
my understanding is that a decision is forthcoming by May.
    Ms. Bordallo. May.
    The Chairman. By May?
    Secretary Mabus. Yes, sir.
    The Chairman. Okay. We will return. We have three votes. We 
will return and resume.
    [Recess.]
    The Chairman. Who is next? We will resume. And thank you, 
gentlemen, for waiting for us.
    Mr. Courtney, 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman. And I want to thank 
all the witnesses for their great testimony this morning. I 
also want to recognize that all three participated in a funeral 
last week at Westmont Presbyterian Church to say good-bye to 
just a great friend, and a great American, Jack Murtha.
    General Conway, I want to particularly publicly thank you 
for the tremendous eulogy. Powerful words that painted a 
picture that I just think the whole country really needed to 
hear about his contribution to the people who wear the uniform. 
So bravo. It was just a splendid job.
    And again I would just say that his presence is actually 
felt in this budget today. The advance procurement in 2007, 
which Chairman Skelton and Chairman Taylor, along with Mr. 
Murtha fought for to get a Congressional plus-up for the 
Virginia-class program today is bearing fruit with the two-a-
year 2011 shipbuilding plan. And that would not have happened 
without his intervention.
    This place moves pretty fast in terms of, you know, the 
process resuming, you know, after some of the folks here leave, 
and pass on. But I think it is important again just to 
recognize for a moment the contribution he made to the Navy, 
and to this important program.
    Earlier, Mr. Chairman, asked Admiral Roughead the question 
about whether or not the SSBN program could maybe be sort of 
put off. Because it does present financial challenges down the 
road as you pointed out. And you responded. But I want to 
actually give you a chance to maybe expand a little bit in 
terms of why that is a priority for the country right now. You 
know, a question which I always ask you, because people ask why 
submarines, and again if you could maybe enlarge on your 
earlier answer I would appreciate it.
    Admiral Roughead. Yes, sir. Thank you. And now is the time 
to go forward with the replacement for the Ohio-class ballistic 
missile submarine. As I have looked at this, and studied it, 
and considered several of the options as to how best to go 
forward.
    Given the fact that we will be taking this class of 
submarine out to 2080, we have to ensure that the technology 
that we put into that ship, that its survivability, its 
reliability, its operational availability enable it to operate 
not just for that length of time, but in the environments where 
others are going to try to negate that advantage that we have 
with our ballistic missile submarine fleet.
    So now is the time to begin that process. Now is the time 
to work closely with our friends in the U.K. to ensure that we 
go forward, and bring that submarine in on time. If we delay, I 
think you rush, you suboptimize. And at the end of the day you 
very well could end up spending more money on it than you 
otherwise would if you didn't have a good, thoughtful design.
    Mr. Courtney. And this year's budget, again, there is money 
for the design aspect of it, which again is consistent with the 
procurement reform bill that we passed last year, which is to 
avoid design-build happening at the same time. But to really 
sort of think things through.
    I guess what I would want to ask just in terms of--you 
know, hopefully this is not wishful thinking. But I mean if we 
do think ahead, and use the best talent possible, and look at 
successful programs like Virginia class and other shipbuilding, 
I mean, do you think that there is a possibility that we could, 
you know, potentially get a point where the $6 billion to $7 
billion projected cost--I mean, we might be able to do a little 
better than that down the road.
    Admiral Roughead. Yes, sir. I think we should look at every 
way that we can legitimately take cost out, but yet maintain 
that capability that we are going to need for the next seven 
decades. So I will be relentless in looking for those 
opportunities. But I emphasize that it has to legitimately be 
taken out. It can't simply be well we will build it cheaper, 
and then you compromise on a lot of other things.
    But we owe it to you. We owe it to the taxpayer to make 
sure that every ship that we buy, that we are taking cost out 
of it in every possible way.
    Mr. Courtney. All right. Mr. Secretary, you wanted to 
comment at all on that?
    Secretary Mabus. One of the things we tried to do with the 
30-year shipbuilding plan was to be absolutely realistic in 
terms of what ships would cost. Realistic in terms historically 
of what Congress has appropriated for ships. But also to show 
the impact that putting the new SSBN in our core budget would 
have on the rest of the fleet. And to be realistic about that 
so that decisions could be made at the appropriate time in 
terms of how we fund our fleet, and how we fund this 
replacement.
    Mr. Courtney. All right. Thank you. I mean obviously this 
is going to be an issue for decades for committees like this. 
But I fully support the effort again to invest in, you know, 
the planning, and designing, because I think that will pay off 
long term.
    Thank you, Mr. Chairman.
    The Chairman. We have two members that haven't asked 
questions yet. But let me ask Admiral Roughead--I was at a 
shipbuilding port not too long ago. And I saw a ship being 
built for the United States Coast Guard. I think it is called 
the National Security Cutter. And I was just wondering why that 
particular ship that we don't have to redesign or reconfigure 
won't do for the Navy? I have seen no request for anything like 
it or for that particular ship itself.
    Admiral Roughead. Yes, sir. And we have looked at a variety 
of options for the type of capabilities we need to meet our--
the needs of the maritime strategy. And the Coast Guard and the 
National Security Cutter, that ship is optimized for their 
missions. And as we look at what we have to do, and as a Navy, 
and as a Navy that has to have versatility and agility built 
into our ships.
    Because I think it is important that our ships be able to 
provide for a range of missions, and not simply be focused on 
one. I would say maybe perhaps the exception to that is the 
ballistic missile submarine because of what its mission is.
    But we have to provide for a range of capabilities. For us, 
speed becomes important. And that led us to the LCS. I, since 
becoming CNO, I have looked at the speed requirements again, 
and I have reassured myself that we are in the right place. But 
what we are building now meets the requirements that we have to 
deliver the type of navy the nation needs to be able to operate 
in the places where we expect to have to operate in the future.
    The Chairman. May I ask, Admiral, for the record, ask some 
bright shipbuilder over the Navy Systems Command to give us the 
pros and cons of that particular ship, including the cost? 
Would you do that for our record?
    [The information referred to can be found in the Appendix 
beginning on page 121.]
    Admiral Roughead. Yes, sir, I will.
    The Chairman. No rush, 2 or 3 weeks, whatever.
    Admiral Roughead. Yes, sir, I will do that.
    The Chairman. And it is easy to do, but that would--I 
really had to scratch my head when I saw that ship. You know, 
why can't we have the plans and we wouldn't have to start from 
scratch there.
    Admiral Roughead. Yes, sir, I will do that.
    The Chairman. Would you do that then? Thank you so much.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. Gentlemen, thank you 
again for your service to our country.
    General Conway, what do you see as the primary force 
protection challenges in Afghanistan right now? And does the 
Marine Corps have everything it needs in Afghanistan?
    General Conway. Yes, sir, I think it is fair to say that we 
do have everything that we need. That of course has been my 
number one priority since I have been in this job, is to make 
sure those troops, especially at the point of the spear, have 
everything they need.
    That said, we push industry for more. And by that, I am 
talking about personal protective equipment in particular that 
is more lightweight and would not be as burdensome as some of 
the pictures you have probably seen coming out of Marjah, 80 to 
100 pounds on the backs of some our Marines carrying their 
sustainment load and the things they need to work 24/7.
    We need a helmet that will stop 762 [7.62mm ammunition]. 
Right now, the biggest threat in Marjah is not necessarily the 
IEDs [Improvised Explosive Devices] for our killed in action, 
it is the sniper that can take a long-range shot and can 
penetrate our protective equipment, particularly the helmet. So 
we continue to pound the table on that with hopes that one day 
we will have that piece of gear in hand.
    Mr. Coffman. Thank you. General Conway, are you confident 
that the EFV [Expeditionary Fighting Vehicle] will provide 
adequate protection against IED threats? How has the program 
been modified to counter this threat?
    General Conway. Sir, it is an interesting question, because 
just in the last couple of days we have completed blast tests 
with the EFV as compared to an MRAP [Mine Resistant Ambush 
Protected vehicle], an RG33, which is actually the mid-level 
CAT-2 MRAP. I was very pleasantly surprised at how well it 
progressed. I mean, about the same for underbody explosions, 
and for underwheel or undertrack explosions, but actually the 
EFV was markedly better against direct fire and indirect fire.
    I will get you a copy of that study. And by the way, I 
would asterisk it by saying, because the report did, this is 
before we apply modular armor that we would want to incorporate 
if we were in an IED-rich environment.
    Mr. Coffman. Thank you, General Conway. General Conway, was 
the decision to delay the EFV's low-rate production in fiscal 
year 2014 to 2015 based on technology development concerns, or 
was it budget-driven?
    General Conway. Congressman, I would say it was probably a 
combination of both. We have seven new vehicles that are paid 
for and are going to be arriving in the test beds throughout 
the spring and summer. There are some KPs--knowledge points--
that we have to go through with those vehicles to determine 
what our full-rate production needs to be, to determine if they 
are going to be passed, the reliability concerns that they have 
had in the past.
    And I think in fairness, the Secretary of the Navy and the 
Secretary of Defense wanted us to have some of the answers to 
those issues before we got into a full rate of buy-in 
procurement.
    Mr. Coffman. General Conway, how do you plan to integrate 
the MATV [MRAP All Terrain Vehicle] and the MRAP vehicles into 
your current tactical wheeled vehicle fleet management program?
    General Conway. Well, sir, we see a future value in, again, 
the smallest of the MRAPs, the CAT-1s, and now the MATVs, which 
is in some ways a replacement for the up-armored Hummer. With 
regard to our combat engineers, our road clearance depths, 
perhaps some other small units. But as was answered earlier, in 
some ways it goes against two years, as a fast and relatively 
light expeditionary force.
    So we are going to preserve them, keep them available, so 
if we get into another static environment like this in the 
future, that we will have those vehicles available. But again, 
a small percentage of them will be incorporated I think into 
the TOE [Table of Equipment] of some of our support battalions.
    Mr. Coffman. General Conway, in looking at the shipbuilding 
plan, do you have any concerns about the forced entry 
requirement in terms of amphibious capability?
    General Conway. Sir, the CNO, under the observance of the 
Secretary of the Navy, have agreed that 38 is the requirement. 
We have said that we must be willing to accept risk down to 
about 33 ships. And if you look at the 30-year shipbuilding 
plan, it will sort of run highs and lows between that 30 and I 
think we get as high as 36 in the out-years.
    But we also need other parts of the fleet to be equally 
strong. You know, we want those surface craft out there that 
give us the force protection shield. We want the support of the 
aircraft carriers if we need their aviation strike capacity. 
And we want the subs out at distance screening the whole of the 
effort. So we need a strong and balanced fleet I think. More 
amphibs is always better, but we understand the fiscal 
pressures that we are dealing with today.
    Mr. Coffman. Mr. Chairman, I yield back.
    The Chairman. Thank the gentleman.
    It looks like our last questioner is the gentleman from 
Virginia, Mr. Nye.
    Mr. Nye. Thank you, Mr. Chairman. First of all, I want to 
thank you all for being here and for your service to our 
country.
    And I want to start by saying I just returned from a trip 
to Afghanistan, and I am particularly impressed with the 
continued dedication of our men and women in uniform out there. 
Not limited to, but particularly including the Marines and 
sailors who we may not expect to see in the desert, but often 
do. They are doing terrific work and I really appreciate what 
they are doing. I hope you will pass our thanks on to those 
folks. We know we have given them a tough mission.
    We have difficult decisions to make here as well, and I 
don't think anyone would suggest that any of you have an easy 
job. Just looking at an article from Inside the Navy recently, 
Secretary Mabus, you were quoted.
    ``Looking ahead at some of the potential future budget 
constraints that we might face in the coming years, having said 
expected future resource streams will severely constrain our 
choices, and that reducing Navy and Marine Corps programs to 
within available resources may require difficult and 
undesirable choices.''
    I couldn't agree with you more. It is a tough position that 
we are in, having to make some decisions in a constrained 
environment. You were also quoted as saying, ``We need to be 
prepared to rethink old assumptions and re-evaluate past 
practices.'' Again, I agree with that.
    We have to make tough decisions based on scarce resources. 
We have heard a number of issues raised by many members of this 
committee about how we are going to spend our resources and our 
military dollars. And of course, we would all like to make sure 
that they are spent in the most efficient and effective way 
possible.
    I will tell you, and I am sure it is going to be no 
surprise to you to hear me say that I was disappointed to see 
in the final QDR language a sentence recommending moving a 
carrier to Mayport, Florida, and investing a substantial amount 
of money in building that home port, which would be the fifth 
U.S. nuclear carrier home port.
    We have talked about it before, that is why I don't think 
you are going to be surprised to hear from me about it today. 
But I will tell you, I was disappointed in a number of things, 
and one was in what I see as a lack of transparency in the 
decisionmaking process that led up to that. I will give you a 
couple of examples of why that troubles me.
    And we talked with the Secretary and Admiral Mullen about 
it in the past couple of weeks. We heard from Secretary Gates 
that he essentially affirmed a statement that Senator Nelson 
said that he had told him about a little over 2 months prior to 
the QDR being issued that--and I want to make sure that I get 
the wording right--but he said I think that they had nothing to 
worry about.
    We saw some drafts of the QDR come out around December that 
suggested that the optimal solution would be a backup port in 
Mayport, rather than a full home port. And then, different 
language come out in the final version a few weeks later.
    I asked Admiral Mullen about it in his testimony, and he 
said essentially that it was a judgment call. We have asked 
over the past year for some more strategic analysis of the 
risks that we are trying to mitigate in Norfolk, and I am 
unsatisfied with the fact that I don't think we have really 
received that now.
    Under Secretary Flournoy said essentially they had been 
given two viable options to assess and choose between. Having a 
backup port or having a full fifth nuclear carrier home port in 
Mayport. And apparently, according to the QDR language, a 
decision was made to go with the one that costs a lot of money.
    Now, we can argue about the costs, somewhere between half a 
billion and a billion. We think it is going to be on the upper 
end of that. As I mentioned now, I was disappointed with the 
transparency of the process, or lack thereof.
    But I have asked for a GAO [Government Accountability 
Office] study to be conducted, which has started to lay out on 
the table all of the potential costs included in this type of 
decision, so we can make that tough decision about how we are 
going to allocate those defense dollars.
    But Admiral Roughead, I just wanted to ask you one 
question. Admiral Mullen said in his testimony when I asked him 
about this, about the strategic dispersal issue. And I think 
you used the words today, ``eggs in one basket kind of idea.''
    And I asked Admiral Mullen if that type of thinking or 
philosophy would apply to every military asset or base that we 
have got, not simply nuclear home port for carriers, but every 
other base, including SSBNs put in Georgia, and other things 
like strategic bombers.
    And he said essentially that, yes, it does apply to 
anything that we are going to have to evaluate like that. Would 
you agree with Admiral Mullen on that?
    Admiral Roughead. I would agree that we have to take a good 
look at where we have the redundancies that are important. And 
you cite the case of a strategic ballistic submarine. Their 
home port is in Georgia. But I can take that ship to Groton, 
Connecticut, and maintain it there. I can take that ship to 
Norfolk, Virginia, and maintain it there. So I have three 
options, even for ballistic missile submarines.
    The aircraft carrier on the east coast of the United States 
is the only ship that I have that I do not have another option 
to put into to do either routine or emergent maintenance.
    Mr. Nye. Another option on the East Coast, although there 
are three others on the West Coast, just to make sure we are 
clear on that.
    I think I am out of time. I will submit additional 
questions for the record. But I appreciate we are going to 
continue working going forward on this to find the right use of 
our defense dollars. And appreciate the work you have put into 
it.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    The gentleman from Pennsylvania, Mr. Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    The Chairman. You bet.
    Mr. Sestak. Mr. Secretary, CNO, I want to first thank you 
very much for how well you have handled that Petty Officer 
Roach case on accountability of some sailor that had been 
accused of being gay, later was discharged, and you held those 
accountable for their mistreatment. And I very much appreciate 
it. If anyone doesn't think that the service doesn't care about 
accountability, they should know what you both did. Thank you 
very much.
    But I do have a question, Mr. Secretary, and it may I 
understand from my staff had been asked before. As in that 
incident we had been asking someone to live a lie, to quote the 
Chairman. It had to do against the greatest ideals that we have 
in the service, that is, of integrity, which you stood up and 
followed.
    I personally don't understand the year it takes to study 
the implementation. We can ask the Marine Corps to fly in off 
of amphibs into Pakistan--or into Afghanistan--in 30 days and 
they can put the operation together and make it happen. This is 
something that has to do with our principles, our ideals.
    Why, except for your concern potentially about the legality 
of it, if really does take a year to implement, we cannot at 
least put out an executive order under stop-loss in order to 
prevent these good men and women, particularly in a time of war 
when we need them, from being discharged?
    Besides the legality question that the Defense Department 
may have, because there is obviously various opinion. If that 
was not something, would you be opposed to it, Mr. Secretary?
    Secretary Mabus. Congressman, the legality argument on that 
seems to me to be the primary one. And to an earlier question, 
the CNO said that the confusion that would be inherent in 
something like that I think is an important consideration.
    Mr. Sestak. But besides that, would you be opposed if it 
was determined to be legal?
    Secretary Mabus. I do think that--my understanding that the 
way the President, as our Commander in Chief, requested 
Congress to change the law, to repeal the law. But also, at the 
same time, he asked the Department of Defense to take a careful 
look at how to implement this law so that--how to implement it 
should Congress decide to change it so that it would be 
implemented in a very smooth, very professional, very 
consistent----
    Mr. Sestak. Only because of time then--and I don't mean to 
be rude interjecting--your support of then of that does take 
that long? But I mean you don't have an opinion then if the 
legality was turned out to be okay. You still feel it needs 
that type--that length of implementation?
    Secretary Mabus. Yes, sir.
    Mr. Sestak. A study? Thank you. I just was curious. I have 
seen the military do things so quickly, and so well. And just--
it kind of passes me by. But I appreciate your comment.
    Commandant, the Army has testified over the past years, and 
the Chairman agreed with this last month that it cannot meet 
its other war plans elsewhere like 2057 for South Korea--
because of Army readiness, and because of the lack of training 
in combined arms for example.
    Is the Marine Corps in a similar state? If so, and--because 
I have one last question for the CNO--and if so, how long would 
it take it to be back to where it could respond to that breadth 
of war plans that we have, because of Iraq.
    General Conway. Check. We are in the same place. We have 
been focused on counterinsurgency now for a number of years, 
and our forces are very good at that. But in the process we 
sacrifice sort of our combined arms kind of skill levels. We 
are encouraged that if we can stay below 20,000 in Afghanistan 
we are going to extend our home station time to about 14 months 
after a 7-month deployment.
    And we are going to use a chunk of that time to get back to 
combined arms. To get back to amphibious types of exercises 
with the Navy----
    Mr. Sestak. What length of time do you think it would take 
if you had to guess if we stay below 20,000?
    General Conway. Sir, I don't think it would be one for one. 
You know, we have been away from it now for six years or so. I 
don't think we will be back in six years. I think we have got 
to develop that expertise, and get it embedded. So I am 
guessing probably the better part of a decade----
    Mr. Sestak. Before we can meet the breadth of war plans 
again?
    General Conway. Well, we can meet the war plans now----
    Mr. Sestak. On a different timeline?
    General Conway. To be as good as we were in 2002 I think--
--
    Mr. Sestak. Okay.
    General Conway [continuing]. Is probably going to take 8 to 
10 years.
    Mr. Sestak. And since I am a sophomore I have to be quick, 
because Mr. Skelton will cut me right off. But--very quickly. 
There has always been this question about 315 ships. Do you 
really think as we look at how technology--particularly 
knowledge is so important in warfare, that when using the long 
metric of numbers of ships as far as trying to determine our 
prowess in the future?
    Admiral Roughead. I do not believe we are wrong in looking 
at the numbers of ships. I think it is how we apply those 
ships, and the range of missions, and geographic areas where we 
are expected to be. And you do get to a numbers point as far as 
being in many places doing different things in large ocean 
areas. And that is where the number generates.
    I think there are many who say, you know, we are bigger 
than the next 13 Navies. But the fact of the matter is that our 
Navy really has existed not for a cataclysmic sea battle all 
the time. But rather for that presence, and the security, and 
the stability that it provides.
    The Chairman. Thank the gentleman.
    Before I call on Mr. Franks, I would urge and ask Mr. 
Secretary would you please provide the committee a copy of the 
ongoing force structure assessment when it is complete. We 
would certainly appreciate that----
    Secretary Mabus. Yes, sir.
    The Chairman [continuing]. Very, very much. I am sitting 
here thinking listening to your testimony how blessed we are to 
have leaders such as you heading the services that you do, and 
do so ably, and so well--people who wear the uniform and work 
for you--I hope that you will carry our appreciation back to 
them. And General Conway we wish you Godspeed. And we are going 
to work you hard between now and the time we say farewell to 
you. Admiral Roughead, thank you so much for your excellent 
testimony. And welcome Secretary Mabus. We expect a lot of hard 
work out of you.
    With that, Mr. Franks, and Mr. Taylor will assume the 
chair.
    Mr. Franks. Well thank you, Mr. Chairman.
    And thank all of you. Let me just echo the chairman's 
remarks related to your service. General Conway, I guess I 
would single you out here a little bit, you know? General 
MacArthur once said that, ``Old soldiers don't die, they just 
fade away.''
    And I know that Marines have a completely different 
perspective. Old Marines don't die. They just charge in a new 
direction. And I want you to know that we are very, very 
grateful for your service. We talk about freedom in this place, 
and we know that it is people like you that--that carry it with 
you everywhere you go. And you have given your life to the 
cause.
    And I want you to know that I believe my children, and the 
children of this country even though they may not remember 
everything about you will live in a safer place, and walking 
the light of liberty, because you were once commandant of the 
Marine Corps. And thank you very much.
    With that, Secretary Mabus, you know how politicians are? 
They have to hit other politicians. And I don't--do you think 
that you have a clear unimpeded latitude to speak in complete--
in candor about the--in public about the short- and long-term 
resource needs of the Department of Navy?
    Secretary Mabus. Yes, sir.
    Mr. Franks. Okay. So I guess I have to--you know, I am 
stuck here. I have to ask given that the fleet is the smallest 
that it has been in several decades, and given the growing cost 
of shipbuilding we seem unlikely to reach Admiral Roughead's 
313-ship fleet any time soon? I mean, every year for the past 
15 years the shipbuilding accounts have been several billion 
dollars short of what is needed. And we primarily underestimate 
the cost of each new vessel. That kind of goes with it, I 
guess.
    We face a fighter gap based on of course the Navy testimony 
of upwards of 250 aircraft by 2018. And that is about one half 
of our carrier-based aircraft. And there is a widening gap in 
the Marine Corps reset funding that could approach $30 billion. 
I mean these are pretty short--serious shortfalls in my 
judgment.
    And of course on the threat side of the equation, the 
Chinese have launched 16 new submarines, and from 2005 and 
2007. And they have announced that they will design and build a 
new class of destroyers that are also working on--that they are 
also working on the first of likely several carriers. Which in 
my opinion is it seems that China has developed, and is 
enhancing its--area-denial capability based on their aggressive 
submarine acquisition program, and their acquisition of 
several--and development of several different anti-ship cruise 
missiles.
    And, I mean, they are just projecting power in a lot of 
different directions. And I think it seems that they are 
deliberately basing that on our assessed vulnerabilities. At 
least it appears to me that way. So my point is--and there is a 
question in here somewhere--the best means of assuring peace in 
the western Pacific in my judgment is maintaining a sufficient 
military power in the region to deter aggression. It is not a 
new concept.
    But the QDR was eerily silent on China. And based on your 
recent comments--and Australia--I mean, it sounds like we maybe 
have a different perspective of that concern. So with all that 
said, do you think and believe that the Navy is programming 
sufficient funds both in fiscal year 2011, and across the 
future years to fully address China's military expansion?
    Secretary Mabus. Yes, sir. I do. And to talk just very 
briefly about a few of the things that you said. We try to be 
very realistic in this budget, and in this 30-year shipbuilding 
plan about the cost of each of our vessels. Because frankly it 
doesn't do us any good to come in low, and then continually to 
ask for more money. If we are going to get the size of fleet 
that we need, we have to be realistic about what they are going 
to cost.
    We are also taking some pretty aggressive actions to drive 
down the cost of ships. The downselect of the OCS is the thing 
that springs to mind. In terms of our capability in the 
Pacific, and particularly the western Pacific, we are very 
mindful of what is happening. The Chinese capabilities and the 
things that they are doing--they haven't been nearly as 
transparent about as we would like. But we do understand the 
types of ships they are building. We understand the types of 
anti-access missiles, both ballistic missiles, and cruise 
missiles that they are fielding. And we understand what they 
are doing with their fleet.
    We have great confidence that the ships that we have today, 
and the ships that we are building for the future, and our 
total force concept will meet whatever challenge--and I won't 
just limit it to the Chinese. That whatever challenge we face 
in the Pacific, we feel that--that the fleet can meet it, and 
that the Navy and Marine Corps team will be there to hedge and 
deter in a very effective way.
    Mr. Franks. All right. Well, thank you all. And thank you, 
Mr. Chairman.
    Mr. Taylor. [Presiding.] Yes. Thanks to the gentleman.
    The Chair will recognize the gentleman from South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    And General Conway, on possibly your last presentation here 
before the Armed Services Committee, I want to thank you for 
your service. And in the last year I have had the extraordinary 
opportunity to visit with your Marines at Camp Leatherneck. I 
was so impressed. And then a great honor that I cherish. My 
wife and I being the--reviewing at Parris Island in November. 
You should be so grateful for the young people that you are 
providing opportunity.
    And Admiral Roughead, I always want to thank you for your 
service at the Naval academy, and then commanding the USS Port 
Royal, which is named after a port in South Carolina. And thank 
you for your service, and hospitality.
    I yield, Mr. Chairman. Thank you.
    Mr. Taylor. The Chair thanks the gentleman.
    And I would like to take this opportunity to thank all 
three of you gentlemen for your service to our nation. 
Commandant, we are going to miss you. I know you are going to 
do great things no matter what you do after uniform. But we 
certainly value every day that you have served us.
    Secretary Mabus, we are very, very, lucky that you gave up 
your private sector probably cushy job for this, but we--again, 
we are lucky to have you.
    And Admiral Roughead, we always value you as the only--I 
believe the only commander of both the Atlantic and the Pacific 
fleets to have served the United States Navy. A very rare, and 
well-deserved distinction.
    Secretary Mabus, before you leave I would like to hand 
deliver to you a letter that--from myself, Senator Cochran, and 
Senator Wicker. A similar letter was delivered to Northrop 
Grumman last week. And it basically says that the Congress has 
authorized and appropriated five ships--already authorized, 
already appropriated. And yet for whatever reason Northrop and 
the Navy have not come to terms--gotten those ships started.
    The admiral has made an excellent case that he needs a 
bigger fleet. The Congress has already responded to that--
appropriating the money. We need to get going. And so I don't 
know if it is Northrop's delay. I don't know if it is the 
Navy's delay. But there is a delay that needs to be addressed 
that I am going to ask you to take a look at that.
    But again thank all of you for your service. And with that, 
this meeting is adjourned.
    [Whereupon, at 1:13 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 24, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 24, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8171.001
    
    [GRAPHIC] [TIFF OMITTED] T8171.002
    
    [GRAPHIC] [TIFF OMITTED] T8171.003
    
    [GRAPHIC] [TIFF OMITTED] T8171.004
    
    [GRAPHIC] [TIFF OMITTED] T8171.005
    
    [GRAPHIC] [TIFF OMITTED] T8171.006
    
    [GRAPHIC] [TIFF OMITTED] T8171.007
    
    [GRAPHIC] [TIFF OMITTED] T8171.008
    
    [GRAPHIC] [TIFF OMITTED] T8171.009
    
    [GRAPHIC] [TIFF OMITTED] T8171.010
    
    [GRAPHIC] [TIFF OMITTED] T8171.011
    
    [GRAPHIC] [TIFF OMITTED] T8171.012
    
    [GRAPHIC] [TIFF OMITTED] T8171.013
    
    [GRAPHIC] [TIFF OMITTED] T8171.014
    
    [GRAPHIC] [TIFF OMITTED] T8171.015
    
    [GRAPHIC] [TIFF OMITTED] T8171.016
    
    [GRAPHIC] [TIFF OMITTED] T8171.017
    
    [GRAPHIC] [TIFF OMITTED] T8171.018
    
    [GRAPHIC] [TIFF OMITTED] T8171.019
    
    [GRAPHIC] [TIFF OMITTED] T8171.020
    
    [GRAPHIC] [TIFF OMITTED] T8171.021
    
    [GRAPHIC] [TIFF OMITTED] T8171.022
    
    [GRAPHIC] [TIFF OMITTED] T8171.023
    
    [GRAPHIC] [TIFF OMITTED] T8171.024
    
    [GRAPHIC] [TIFF OMITTED] T8171.025
    
    [GRAPHIC] [TIFF OMITTED] T8171.026
    
    [GRAPHIC] [TIFF OMITTED] T8171.027
    
    [GRAPHIC] [TIFF OMITTED] T8171.028
    
    [GRAPHIC] [TIFF OMITTED] T8171.029
    
    [GRAPHIC] [TIFF OMITTED] T8171.030
    
    [GRAPHIC] [TIFF OMITTED] T8171.031
    
    [GRAPHIC] [TIFF OMITTED] T8171.032
    
    [GRAPHIC] [TIFF OMITTED] T8171.033
    
    [GRAPHIC] [TIFF OMITTED] T8171.034
    
    [GRAPHIC] [TIFF OMITTED] T8171.035
    
    [GRAPHIC] [TIFF OMITTED] T8171.036
    
    [GRAPHIC] [TIFF OMITTED] T8171.037
    
    [GRAPHIC] [TIFF OMITTED] T8171.038
    
    [GRAPHIC] [TIFF OMITTED] T8171.039
    
    [GRAPHIC] [TIFF OMITTED] T8171.040
    
    [GRAPHIC] [TIFF OMITTED] T8171.041
    
    [GRAPHIC] [TIFF OMITTED] T8171.042
    
    [GRAPHIC] [TIFF OMITTED] T8171.043
    
    [GRAPHIC] [TIFF OMITTED] T8171.044
    
    [GRAPHIC] [TIFF OMITTED] T8171.045
    
    [GRAPHIC] [TIFF OMITTED] T8171.046
    
    [GRAPHIC] [TIFF OMITTED] T8171.047
    
    [GRAPHIC] [TIFF OMITTED] T8171.048
    
    [GRAPHIC] [TIFF OMITTED] T8171.049
    
    [GRAPHIC] [TIFF OMITTED] T8171.050
    
    [GRAPHIC] [TIFF OMITTED] T8171.051
    
    [GRAPHIC] [TIFF OMITTED] T8171.052
    
    [GRAPHIC] [TIFF OMITTED] T8171.053
    
    [GRAPHIC] [TIFF OMITTED] T8171.054
    
    [GRAPHIC] [TIFF OMITTED] T8171.055
    
    [GRAPHIC] [TIFF OMITTED] T8171.056
    
    [GRAPHIC] [TIFF OMITTED] T8171.057
    
    [GRAPHIC] [TIFF OMITTED] T8171.058
    
    [GRAPHIC] [TIFF OMITTED] T8171.059
    
    [GRAPHIC] [TIFF OMITTED] T8171.060
    
    [GRAPHIC] [TIFF OMITTED] T8171.061
    
    [GRAPHIC] [TIFF OMITTED] T8171.062
    
    [GRAPHIC] [TIFF OMITTED] T8171.063
    
    [GRAPHIC] [TIFF OMITTED] T8171.064
    
    [GRAPHIC] [TIFF OMITTED] T8171.065
    
    [GRAPHIC] [TIFF OMITTED] T8171.066
    
    [GRAPHIC] [TIFF OMITTED] T8171.067
    
    [GRAPHIC] [TIFF OMITTED] T8171.068
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 24, 2010

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. SKELTON

    Admiral Roughead. The National Security Cutter (NSC) was designed 
to conduct an offshore patrol mission that is very different from Navy 
missions, and the NSC does not meet Navy requirements for speed, draft, 
survivability, and manpower requirements. The Navy is building the 
Littoral Combat Ship (LCS) to meet its Joint Staff-validated 
warfighting requirements. NSC would require significant and costly 
design changes to meet LCS capability requirements, which would likely 
result in the end cost of a modified NSC exceeding that of LCS. A more 
detailed comparison of LCS and NSC characteristics follows.
    In speed, LCS has a sprint speed of more than 40 knots; NSC sprint 
speed is 28 knots. In draft, LCS draft is approximately 13 feet to 
engage threats in the Littorals; the NSC draft is 22.5 feet, 
restricting its access in shallow waters. The inability of NSC to meet 
speed and draft requirements fundamentally limit the areas where the 
NSC can effectively operate. In survivability, LCS is built to Naval 
Vessel Rules and provides Level 1 survivability, which provides for 
shock hardening, protection against chemical, biological, radiological 
attack, and damage control/firefighting capability against destructive 
fires. NSC does not provide Level I survivability as it was not 
designed to operate in the same threat environment as LCS. In manpower 
requirements, LCS has a core crew of 40 personnel with 35 personnel 
comprising the mission package detachment and aviation detachment; the 
size of NSC crew is 110, 35 more than LCS at full mission capability. 
Additionally, LCS is designed to employ modular mission packages that 
address specific naval capability gaps in mine countermeasures, surface 
warfare, and anti-submarine warfare. NSC does not have the space or 
ability to employ these mission packages. [See page 37.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. BARTLETT

    Admiral Roughead. Navy expects all recent ship classes to survive a 
100 kilovolts per meter (kV/m) event with some degradation to mission 
possible. Regarding your specific question about remaining warfighting 
capability after an electromagnetic pulse (EMP) laydown of 100 kV/m, 
the answer is classified and I will provide it to you via separate 
correspondence. [See page 17.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 24, 2010

=======================================================================

      
                   QUESTION SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. The FY10 NDAA contained language that mandated that no 
funds could be obligated by the Navy for construction or advanced 
procurement of surface combatants to be constructed after FY11 until 
multiple conditions had been met:* Submission of an acquisition 
strategy for surface combatants approved by USD AT&L and briefed to and 
approved by the JROC;* Verification by an independent review panel that 
the Navy considered numerous factors including modeling and simulation, 
operational availability, life cycle costs including manning, cost and 
schedule ramifications of accommodating new sensors and weapons to 
counter future threats; and* Conclusions of a joint review by SECNAV 
and Director MDA defining additional requirements for investment in 
Aegis BMD beyond the number of ships planned to be equipped for this 
mission in the FY 2010 budget submittal. Further, the FY10 NDAA 
required an update to the Navy's Open Architecture report to Congress 
upon submittal of the FY12 budget to reflect the Navy's combat systems 
acquisition plans for surface combatants. It also mandated submission 
of an update to the 2006 Naval Surface Fires Support report to Congress 
identifying capability shortfalls. Finally, the language directed the 
Navy to develop a plan to incorporate new technologies from DDG-1000 
and other surface combatant programs into ships constructed after 2011 
to avoid redundant development, implement open architecture and foster 
competition. To date, the Navy has not satisfied these requirements.
    The FY10 NDAA contained language that mandated that no funds could 
be obligated by the Navy for construction or advanced procurement of 
surface combatants to be constructed after FY11 until several 
conditions had been met, including verification by an independent 
review panel that the Navy considered numerous factors as part of 
establishing their shipbuilding plan and considered new technologies 
from more recent ship classes than the DDG-51.
    Such an independent assessment of needs and options seems 
particularly germane to our hearing today. Both the FY11 President's 
budget and 30-year shipbuilding plan you submitted this year is heavily 
based on DDG-51, one would assume this is a result of the 
aforementioned analyses, strategies and reviews. When would you expect 
the Navy to submit the results of this independent assessment that 
supports the plan you've submitted?
    Admiral Roughead. On February 6, 2010, the Secretary of the Navy 
submitted to the congressional defense committees a plan for 
implementing the language contained in Section 125 of Fiscal Year (FY) 
2010 National Defense Authorization Act (NDAA), Public Law 111-84.
    In addition, the Navy has completed the following actions:
    <bullet>  Completed the development of the Technology Roadmap for 
Surface Combatants and Fleet Modernization February 2010 in accordance 
with Section 125(d) of the FY 2010 NDAA.
    <bullet>  The update to the Naval Surface Fire Support Report to 
Congress was delivered on March 11, 2010.
    As reported in the Navy's implementation plan report to Congress, 
an independent panel, jointly established by the Assistant Secretary of 
the Navy for Research, Development and Acquisition (ASN(RD&A)) and the 
Deputy Chief of Naval Operations, Integration of Capabilities and 
Resources (OPNAV N8) reviewed the Navy's future guided missile 
destroyer hull and radar study of 2009. This independent panel was 
comprised of senior subject matter experts with extensive background in 
policy, acquisition, research and development, radar and ship design, 
combat systems integration, budget and cost analysis. Results of the 
Navy study, along with the independent review panel's report, have been 
briefed to the congressional defense committees' staff; members of the 
House Armed Services Committee received a brief on March 11, 2010. The 
full Navy study and independent review panel report will be provided 
this Spring.
                                 ______
                                 
                  QUESTION SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. General Conway, you serve as the DOD Executive 
Agent for Non-Lethal Weapons. The 2009 Marine Corps S&T Strategic Plan 
identifies a number of capabilities required to address irregular 
warfare needs in the future including interim force capabilities. Yet 
the budget for these is stale at about $100 million per year and 
several promising programs aren't making their way from R&D into the 
field. What needs to happen to encourage wide-spread adoption of these 
capabilities across all services? Would legislation empowering your 
Joint Non-Lethal Weapons Office be useful to you? For example, does the 
office need to become a joint program office?
    General Conway. The DOD NLW Executive Agent has an ongoing 
independent assessment by the Center for Naval Analysis that is 
researching this question and that is nearing conclusion. Additional 
time is needed by the DOD NLWEA to review the CNA report, assess its 
findings and make a recommendation on the way forward.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. AKIN

    Mr. Akin. I have been briefed that the Navy requires a 5-to-1 ratio 
of non-deployed to deployed ships in order to support its surface 
combatant mission. Given the added requirement for afloat BMD, how many 
more BMD-capable ships will the Navy need in order to support this 
mission without negatively impacting the safety and support of the 
Carrier Strike Group?
    Admiral Roughead. In conjunction with the Missile Defense Agency 
(MDA), we adjusted the Aegis BMD Program of Record (POR) to increase 
the total number of funded Aegis BMD-capable ships across the FYDP from 
21 to 38, of which 27 will be deployable in FY15. Increasing the 
inventory of Surface Combatants with BMD capability gives the Navy 
greater flexibility to meet Combatant Commander surge and contingency 
operations requirements, and to provide an organic BMD capability to 
our CSGs.
    Mr. Akin. In your testimony you mentioned using SLEP as a primary 
mitigation strategy for the Strike Fighter Shortfall problem, yet I 
have been briefed by the Navy that Fleet OPTEMPO is the primary 
limiting factor for how many jets can undergo SLEP per year. If the 
Navy has already optimized the number of jets it is able to SLEP 
annually, how will this measure be able to do in the future what it is 
apparently unable to do now?
    Admiral Roughead. According to the current planning schedule, the 
SLEP window of opportunity for F/A-18A-D does not occur until FY 2012, 
when modifications to our F/A-18A-D aircraft begin. The Navy is 
developing a FY 2012 budget request that will include SLEP 
requirements.
    SLEP is only one aspect of the Navy's TACAIR inventory management 
initiatives targeted at preserving the service life of our existing 
legacy strike fighter aircraft (F/A-18A-D). The Navy will reduce the 
number of aircraft available in our squadrons during non-deployed 
phases to the minimum required. Navy expeditionary squadrons and those 
supporting the Unit Deployment Program (UDP) will be reduced from 12 
aircraft to 10 aircraft per squadron on an as-required basis. These 
measures reduce the operational demand on legacy F/A-18s, making more 
aircraft available for induction into life extension events. The Navy 
is also evaluating depot level efficiency to maximize throughput and 
return legacy strike fighter aircraft to the Fleet. Collectively, these 
measures will extend the service life of the legacy aircraft and make 
the projected inventory decrease manageable. The management initiatives 
being implemented prudently balance operational risks and requirements 
today, while seeking to fulfill future projected capacity and 
capability requirements.
    Mr. Akin. The JSF continues to be plagued by delays. Most recently, 
it was reported that the IOC date for the Air Force will slide roughly 
two years to late CY 2015. In the past year the JSF completed only 
roughly 10% of its planned test flights. Given that the Navy has 
traditionally been the service with the most stringent OP/EVAL 
requirements prior to IOC, and given that the Navy is scheduled to 
receive the carrier variant of the JSF last, how will these delays 
effect the Navy's IOC date?
    Admiral Roughead. Based on the SECDEF approved F-35 program 
restructure and delivery of FY 2011 procured aircraft, the Navy F-35C 
IOC has been changed to 2016.
    The Navy IOC is based on three items: sufficient aircraft 
quantities, desired capability to conduct all Operational Requirements 
Document missions, and completion of operational test of delivered 
capability. The Navy's intent is to stand up squadrons as aircraft 
become available and declare IOC when sufficient capability is tested 
and delivered.
    Mr. Akin. Will the Navy accept an inordinate risk by abandoning its 
long-held standards for thorough test and evaluation in order to IOC 
the JSF in accordance with a predetermined timeframe, or will the Navy 
proceed with its customary diligence, thereby exacerbating the Strike 
Fighter Gap?
    Admiral Roughead. The Navy will not abandon its long-held 
standards. Based on the program and test schedule restructure and 
delivery of FY 2011 procured aircraft, the Navy F-35C IOC has been 
revised to be in 2016 based on three items: sufficient aircraft 
quantities; desired capability to conduct all Operational Requirements 
Document missions; and completion of operational test of delivered 
capability.
    F-35 test program risks will be mitigated through the continuation 
of a test program assessment and the support and advice of the OSD 
Director of Operational Test and Evaluation. An Integrated Test Review 
Team composed of experts in Developmental Test and Operational Test 
continues to mature test program plans to ensure program technical 
maturity is aligned with IOC dates; operational assessments are 
optimized; new opportunities for integrated test are matured; test 
schedule margins are realistic; and the proposed flow of technical data 
enables the planned operational test periods.
    To mitigate aircraft assets required during testing, the program is 
adding one carrier variant (CV) aircraft to the SDD program to expand 
developmental testing capacity; utilization of three Low Rate Initial 
Production (LRIP) aircraft in support of development testing; and 
addition of another software development/test capability.
    The Navy, in conjunction with OSD and the USAF, is pursuing every 
opportunity to increase efficiency of test and accelerate delivery of 
required capability to maximize our strike fighter inventory. We will 
stand up squadrons as aircraft become available and declare IOC when 
sufficient capability is tested and delivered.
    Mr. Akin. I have been briefed that the Marine Corps intends to IOC 
the JSF on time, regardless of where the F-35 stands with respect to 
test and evaluation. Given the overwhelming delays in test for the F-
35, this could potentially require the Marine Corps to IOC a weapons 
system long before it is fully tested. Is it wise to take assets and 
resources away from our ongoing operational requirements in order to 
prematurely force the introduction of an aircraft that is not even 
optimized for the fight we are currently in today?
    General  Conway. The Marine Corps plans to IOC with a multi-mission 
capable Block 2B aircraft as described in the JSF Operational 
Requirements Document (ORD) CN-3. A USMC IOC is projected to be 2012 
for the F-35B which is based on operational requirements and the 
associated metrics that encompass capabilities, equipment, training, 
and support that will measure the progress of the program to meet the 
USMC requirements between now and December 2012 and enable the Marine 
Corps to ensure all the elements required for operational use of the F-
35B are ready. An IOC declaration will be dependent upon meeting these 
requirements.
    No assets or resources are being taken away from operational 
requirements to IOC. The USMC transition to the F-35B is structured and 
scheduled to meet operational requirements throughout the process 
without degradation.
    Mr. Akin. Your Harrier squadrons currently have 16 aircraft each. 
One of the ``Management Levers'' the DoN has briefed to me as a means 
of mitigating Strike Fighter Shortfalls is to reduce the number of 
aircraft in expeditionary F/A-18 squadrons by 2. Yet, they have also 
informed me that this ``management lever'' is not possible given 
existing operational requirements. Knowing that the Marine Corps 
requires its existing number of jets in order to support its current 
share of sorties, it seems reasonable to assume that the Marine Corps 
likewise requires its existing compliment of Harriers as well. Will you 
be replacing Harrier Squadrons with an equivalent number of F-35's? If 
not, how will this impact current operational demand?
    Will the rate at which you plan to replace Harriers meet current 
operational requirements?
    General  Conway. The key enabler the AV-8B provides is the ability 
to deploy as part of a composite Air Combat Element (ACE) within the 
Marine Expeditionary Units (MEU) as part of our basic Marine Air Ground 
Task Force maneuver element. An integrated Tactical Aviation capability 
at this level provides the ability to project, protect, and prosecute 
combat operations when and wherever required. The F-35B STOVL Joint 
Strike Fighter leverages off the AV-8B's proven legacy in this 
environment and adds the multi-mission capabilities of the F/A-18 
aircraft that will evolve our MEU's into far more superior force in 
readiness.
    We have seven standing MEU's and the requirement to continue this 
force in the future has been repeatedly vetted and validated. Replacing 
the AV-8B's with a similar number F-35B's is the plan to maintain the 
capabilities to meet our operational requirements. Our procurement 
plans support the transition of the Harrier squadrons with the 
Lightening II aircraft, same number of aircraft supporting the same 
number of MEU's with one noted addition. When a 6 aircraft Detachment 
deploys with the ACE as it does today with the Harrier, the remaining 
combat capability of the F-35B in the ten aircraft left behind has the 
same resident capabilities of our other fourteen 10 aircraft squadrons 
that are replacing the Hornets. With this construct of the F-35B 
squadrons, seven 16 aircraft squadrons and fourteen 10 aircraft 
squadrons, we take our tactical aviation capabilities into a common 
single type of aircraft with all the associated synergy and savings 
while increasing our MAGTF combat capabilities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. Six amphibious ships will be decommissioned within the 
next three years, bringing the amphibious force to below 30. This 
brings the risk level to above what Navy and Marine Corps defines as 
the ``limit of acceptable risk.'' Understanding that the Navy plans to 
retain these vessels in the inactive fleet, rather than selling or 
dismantling them, what would be the cost of continuing to operate the 
vessels? What prevents the Navy from retaining these ships?
    Admiral Roughead. The cost of maintaining ships past their design 
life is difficult to forecast accurately; however, the table below 
provides Rough Order of Magnitude (ROM) estimates absent specific ship 
studies to determine if extending the service lives of these ships 
through the FYDP is feasible.
    Navy retires ships from service when changes in mission or threat 
environment over the period of a ship's commissioned service, or 
deterioration in overall seaworthiness, make the ship no longer viable 
or cost-effective for future service. The LHA 1 Class does not meet the 
challenges of Joint Strike Fighter (JSF) integration. The LPD 4 Class 
ships have reached or exceeded their expected service lives of 40 
years, and provide limited C5I capability to support USMC current and 
future missions.
    Our 30-year shipbuilding plan provides a projected battle force 
that balances the anticipated risk across the FYDP with the security 
uncertainties of the future to achieve the best balance of mission 
capabilities, resources, and requirements.


----------------------------------------------------------------------------------------------------------------
                                                               Unfunded Costs FY11-15 ($ Millions/FY11 dollars)
               Ship                    Date of      Age  in  ---------------------------------------------------
                                      Commission      FY15    Ops and Maint   Manpower*    Training**     Total
----------------------------------------------------------------------------------------------------------------
USS NASSAU LHA 4                    28-Jul-79....  36.......   289.........   439.......   55.........   783
USS PELELIU LHA 5                   3-May-80.....  35.......   322.........   250.......   30.........   602
USS CLEVELAND LPD 7                 21-Apr-67....  48.......    95.........   151.......   19.........   265
USS DUBUQUE LPD 8                   1-Sep-67.....  48.......   149.........   151.......   19.........   319
USS DENVER LPD 9                    26-Oct-68....  46.......   176.........    87.......   10.........   273
USS PONCE LPD 15                    10-Jul-71....  44.......   146.........   120.......   14.........   280
----------------------------------------------------------------------------------------------------------------
                       TOTAL (FY11-15)                        1177.........  1198.......  147.........  2522
----------------------------------------------------------------------------------------------------------------
* Manpower costs programmed in the year of decommissioning are \1/2\ of a full year requirement; reflects MPN/
  RPN/DHAN/R and OMN.
** Training reflects MPN/RPN/DHAN/R for Individuals Account for ships listed.
All values are in $M (FY11).


    Mr. Wilson. With the projected fighter shortfall and the further 
sliding of the JSF, why is the Navy not planning on purchasing 
additional F/A-18EIF aircraft? Though the JSF will show significant 
stealth improvements over the E/F, the SuperHornet has significant 
improvements in signature improvements over the legacy Hornets. Do you 
believe that advances in air defense over the next several years will 
lead to such a tactical risk that it is worth taking the strategic risk 
of such a substantial force structure gap?
    Admiral Roughead. The F/A-18E/F is a highly capable aircraft 
designed to meet and defeat today's threats with growth potential for 
the future; however, it cannot replace the F-35C. I remain committed to 
the JSF program because of the advanced sensor, precision strike, 
firepower, and stealth capabilities JSF will bring to our Fleet. We are 
monitoring the JSF program closely and managing our existing strike 
fighter capacity to meet power projection demands until JSF is 
delivered. The management initiatives being implemented prudently 
balance operational risks and requirements today, while seeking to 
fulfill future projected capacity and capability requirements.
    Mr. Wilson. The increased operational tempo of the past six years 
has led to much talk about strategies for increasing dwell times for 
Marines. Many units have been operating on a less than one-to-one 
dwell-to-deployed time. This has led to a substantial lack of training 
time, and hindered readiness. Have you abandoned the two-to-one dwell-
to-deployed ideal? What strategies are you pursuing to ensure that 
Marines will be properly trained for both their primary and contingency 
missions?
    General Conway.
    <bullet>  To date, almost 75 percent of the available Marines have 
deployed in support of Operations IRAQI FREEDOM and ENDURING FREEDOM, 
or other operational commitments around the globe.
    <bullet>  Individual Deployment Tempo. We measure individual 
deployment tempo on a two-year sliding scale--the number of days 
deployed out of the previous 730 days. In the last seven years, we have 
seen a twentyfold increase in the individual deployment tempo of 
Marines in the active component. In October 2002, the number of Marines 
who deployed for at least 120 consecutive days in a two-year period was 
4,845. As of January 2010, 100,760 Marines had deployed for at least 
120 consecutive days.
    <bullet>  Unit Operational Tempo. The metric we use to measure unit 
operational tempo is the ratio of ``deployment to dwell''--months 
deployed to months at home station. We limit the duration of 
deployments for units and individual Marines to no more than seven 
months for battalions and squadrons. Higher headquarters units deploy 
for one year.
    <bullet>  Our goal is to achieve a 1:2 deployment-to-dwell ratio in 
the active component and a 1:5 ratio in the reserve component. Our 
reserve units are currently operating at a ratio that more closely 
approximates a ratio of 1:4, while many of our active component units, 
on average, are nearing the goal of 1:2 (see Table 1).

                                 Table 1. MAGTF Unit Deployment-to-Dwell Ratios
----------------------------------------------------------------------------------------------------------------
                     MAGTF Element                         Average Ratio (Months Deployed: Months Home Station)
----------------------------------------------------------------------------------------------------------------
            Command Element                              1 : 1.43
            Ground Combat Element                        1 : 2.08
            Aviation Combat Element                      1 : 2.11
            Logistics Combat Element                     1 : 1.79
----------------------------------------------------------------------------------------------------------------
Note: As of 18 Nov 2009. The subordinate units most frequently deployed are Intelligence Battalions, 1:1.01
  (Command Element); Infantry Battalions, 1:1.78 (Ground Combat Element); VMU Squadrons, 1:1.10, and Attack
  Helicopter Squadrons, 1:1.28 (Aviation Combat Element); and Explosive Ordnance Disposal Companies 1:1.30
  (Logistics Combat Element).

    Mr. Wilson. Sustained level of combat has led to a large gap 
between equipment the Marine Corps needs fixed or replaced and what has 
been fixed or replaced. Additionally the Maritime Prepositioning Ships' 
inventories have been greatly depleted. Do you have a proposed timeline 
for getting the Marine Corps back on track with the equipment they 
need? Is there a move to replenish the Maritime Prepositioning 
supplies?
    General  Conway.
    Maritime Prepositioning Force (MPF)
    Our Maritime Prepositioning Ships Squadrons (MPSRONs) will be reset 
with the most capable equipment possible. We have begun loading them 
with capabilities that support lower spectrum operations while still 
maintaining the ability to generate Marine Expeditionary Brigades 
(MEBs) capable of conducting major combat operations. As we modernize, 
apply lessons learned, and reset our MPSRONs their readiness will 
fluctuate. However, our endstate is all three MPSRONs fully reset by 
2012 and Marine Corps Prepositioning Program-Norway (MCPP-N) reset 
within Marine Corps priorities as assets become available.
    The MPSRONs are currently rotating through Maritime Prepositioning 
Force Maintenance Cycle-9. MPSRON-1 completed MPF Maintenance Cycle-9 
in September 2008 and is currently at 83 percent of its full equipment 
set. As has been addressed in previous reports, equipment from MPSRON-1 
was required to outfit new units standing up in Fiscal Year 2007 and 
Fiscal Year 2008 as part of our end strength increase to 202,000. While 
the majority of combat systems are loaded, MPSRON-1 is short a portion 
of its motor transport, communications and bulk fuel/water storage 
capability. MPSRON-1 is expected to be fully reset at the completion of 
its next maintenance cycle in 2011.
    Equipment from MPSRON-2 was offloaded to support Operation IRAQI 
FREEDOM II. During its rotation through MPF Maintenance Cycle-9, 
between August 2008 and July 2009, the readiness of MPSRON-2 was 
substantially improved from 49 percent to its current readiness of 77 
percent. Upon integration of MPSRON-2's fifth ship, a Large, Medium 
Speed, Roll-on/Roll-off (LMSR) ship in Jan 2011 and completion of its 
MPF Maintenance Cycle-10 rotation in fiscal year 2012, MPSRON-2 is 
expected to be fully reset.
    MPSRON-3 was reset to 100 percent of its equipment set during MPF 
Maintenance Cycle-8 in March 2007. MPSRON-3 is rotating through MPF 
Maintenance Cycle-9 and currently has three ships of equipment 
downloaded at Blount Island Command. Two of MPSRON-3's ships were 
employed in Operation UNIFIED ASSISTANCE in Haiti and provided the 
Marine Expeditionary Units and Naval Support Elements with the 
additional equipment and supplies necessary to support immediate 
relief. The goal is, upon completion of its MPF Maintenance Cycle-9 and 
backload of all vessels, in July 2010 MPSRON-3 will return to 100 
percent.
    Marine Corps Prepositioning Program: Norway
    The Marine Corps Prepositioning Program--Norway (MCPP-N) was used 
to source equipment in support of operations in Iraqi and Afghanistan, 
including the recent force increase. MCPP-N is routinely utilized to 
support theater security cooperation activities and exercises in the 
AFRICOM and EUCOM areas of responsibility. The Marine Corps continues 
to reset MCPP-N in accordance with our operational priorities while 
also exploring other locations for geographic prepositioning that will 
enable combat and theater security cooperation operations in support of 
forward deployed Naval Forces.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS

    Mrs. McMorris Rodgers. Like many, I am concerned about the lack of 
number of ships in the Navy. About 100 years ago, Great Britain was a 
world super power. It was also during this time that Great Britain 
dominated the sea. Are you concerned that if we don't make it a 
priority to build ships to maintain our sea dominance that this could 
weaken our country's super power standing?
    Admiral Roughead. As our security and prosperity are inextricably 
linked with those of other nations, a global Fleet is essential to 
deterring aggression, assuring our allies, building partnerships, and 
protecting our national interests. A Fleet of no less than 313 ships is 
necessary to meet those operational requirements. Our 30-Year 
shipbuilding plan grows the capacity of our Fleet to 320 ships by 2024, 
with the naval capabilities necessary to meet the challenges the nation 
faces over the next three decades of the 21st century. On balance, I 
believe the force structure represented by our 30-year shipbuilding 
plan maintains our ability to project power across the spectrum of 
challenges we are likely to face throughout the time period of the 
report, albeit with prudent risk where appropriate.
    Mrs. McMorris Rodgers. Wouldn't you agree that spouses relying on 
the Military Spouse Career Advancement Account (MyCAA) program to 
further their academic goals should have been notified prior to the 
temporary stay in order to make the necessary arrangements with their 
school?
    Admiral Roughead. I do agree that spouses should have been afforded 
additional notice in advance of such a significant change in program 
policies or procedures. The pause was necessitated by an unforeseen, 
unprecedented spike in enrollments, which not only pushed the program 
to its budget threshold, but also began to overwhelm the program's 
support systems. As a senior leader who recognizes the extraordinary 
role military spouses play in the lives and careers of our uniformed 
service members, I share the Department's deep regret in reaching the 
decision to temporarily suspend the program on such short notice.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. The Administration's Phased, Adaptive Approach to BMD 
drives BMD-capable ships to provide effects at three very different 
levels of war. First, they must provide theater effects for sea-base 
defense. They must also provide regional and cross-regional effects to 
areas like CENTCOM and/or PACOM. Finally they must be able to provide 
effects for homeland defense (global effects). This is a daunting task. 
Is the C3 (command, control, communications) architecture in place to 
enable BMD-capable ships to perform all of these functions? What 
initiatives are underway to connect the sensors and shooters to provide 
a layered missile defense that protects not only our forces abroad but 
the Homeland? Is there a cost to other missions when these ships are 
conducting their BMD mission? How would you quantify the risk based on 
this expanded tasking?
    Admiral Roughead. C3 (command, control, communications) 
architecture is in place to enable BMD-capable ships to perform all 
three levels of war. The Navy contributes to BMD as part of a Joint and 
coalition family of systems. As new capabilities are added, the 
existing Missile Defense Agency managed C3 architecture is updated to 
ensure interoperability and effectiveness. The key C3 interface between 
BMD ships and the Ballistic Missile Defense System (BMDS) is in place. 
In most Combatant Commands (COCOM), the capability exists but requires 
further upgrades and enhancements. The Navy is currently resourcing 
Maritime Operations Centers (MOC) with access to the Command and 
Control Battle Management and Communications (C2BMC) applications to 
increase Command and Control connectivity with the Global BMDS. The 
Navy is addressing communication improvements to support seamless BMDS 
integration across Theater, Regional and Strategic Communications for 
BMD cueing and track management. A majority of this capability, such as 
Multi-TADIL-J, exists currently.
    Initiatives are being undertaken to connect the sensors and 
shooters in a layered missile defense that protects not only our forces 
abroad but also the Homeland. The spiral development of C2BMC includes 
continuous improvements which will enhance coordination across Navy, 
Joint and Coalition sensors, contributing to Homeland Defense and 
theater and regional missions.
    Mission prioritization is directed at the highest levels of the DOD 
and is based on Combatant Commander (CCDR) requirements. Naval 
operations, to include maritime BMD, are led by Maritime Component 
Commanders at theater Maritime Operations Centers (MOC), and 
effectively employ multi-mission Surface Combatants with BMD capability 
to meet CCDR requirements. Regular CCDR sponsored exercises and test 
events are used to benchmark and improve coordination among commanders 
in theater, cross-regional, and Homeland defense operations. Navy has 
also added BMD scenarios to Fleet battle experiments and exercises to 
identify and test additional enhancements.
    The BMD mission does not represent an increase in overall risk, but 
rather a reduction in risk to our deployed forces and interests around 
the globe. That said, the Navy has a finite number of surface 
combatants to conduct numerous missions. Combatant Commanders balance 
theater level requirements, forces and risk in carrying out their 
missions, to include BMD.
    Mr. Lamborn. Our potential adversaries have shown the capability 
and willingness to deny our forces access to satellite communications 
either through the use of anti-satellite weapons or communications 
jamming. While anti-satellite technology is a very real threat, proven 
by China's January 2007 shoot down of one of their aging satellites, 
the technology to interfere with satellite communications is simple and 
readily available worldwide from any local Radio Shack store. What 
specific measures has the U.S. Navy taken to ensure that it can 
continue to provide missile defense in a satellite communications 
denied environment? I understand if this requires a classified 
response, but I encourage you to share what you can with this committee 
in both an unclassified and classified response.
    Admiral Roughead. The Navy currently has a number of mitigation 
techniques to counter jamming threats available for use in a Satellite 
Communications (SATCOM) degraded environment. Use of frequency hopping, 
agile spot beams, and spread spectrum techniques provide low 
probability of detection and intercept of our SATCOM. The Department of 
the Navy studies SATCOM degraded environment mitigations through our 
Range of Warfare Command and Control initiative, better preparing our 
forces to meet their operational requirements despite others' efforts 
to disrupt them. The Navy is capable of conducting its missions in this 
challenging environment, to include missile defense. Through these 
efforts, and in cooperation with the joint and interagency community on 
the development of other mitigations, like the Joint Aerial Layer 
Network, the Navy will be poised to operate in the most challenging 
electromagnetic environments now and in the years to come.
    If you desire further elaboration on the Navy's mitigation 
techniques and initiatives, I can provide a classified response or have 
my staff brief you on the issue in more detail.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER

    Mr. Hunter. Secretary Mabus, as you may know, in the FY10 NDAA 
report language was included regarding the Miramar Air Station Trap and 
Skeet range. The provision in the NDAA directs the ``Secretary to 
submit a report to the Committee on Armed Services of the Senate and 
the Committee on Armed Services of the House of Representatives when 
the PA/SI is complete. The report should include a description of any 
mitigation measures needed and timeline to complete, and plans and 
timeline to reopen the range.'' It is my understanding that the PA/SI 
was completed in December 2009. Can you please tell me what the status 
is of your report to both the SASC and HASC as well as when it will be 
available for our review?
    Secretary Mabus. The Preliminary Assessment report is complete. The 
Site Inspection report was recently revised to reflect regulatory 
agency comments and was finalized March 18, 2010. Based on the results 
of these studies, the Report to Congress required by the House Report 
2647 of the FY10 NDAA is currently being prepared and will be provided 
to the Senate and House Armed Services Committees in the next 60 days. 
Copies of the Preliminary Assessment and the Site Inspection reports 
will also be made available to the Committees.
    Mr. Hunter.. General Conway, it is my understanding that the Marine 
Corps has developed a roll-on, roll-off technology that expands the 
capability of the KC-130J. The Harvest Hawk program will enable the KC-
130J to fulfill multiple missions individually or simultaneously from 
refueling missions, including fire support missions and intelligence, 
surveillance and reconnaissance (ISR) missions. I am encouraged by the 
Marine Corps' work with Harvest Hawk and their plan to increase the 
capability of the KC-130J aircraft in order to take advantage of the 
extended endurance of the KC-130J. What is the status of the Harvest 
Hawk developmental effort and when do you expect to be able to field 
the capability?
    General  Conway. Harvest Hawk is currently in developmental test 
and is expected to deploy during the summer 2010.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
